<html>
<title> - CONSIDER S. 3871, A BILL DIRECTING THE EPA TO ESTABLISH A HAZARDOUS WASTE MANIFEST</title>
<body><pre>[Senate Hearing 109-1076]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1076
 
  CONSIDER S. 3871, A BILL DIRECTING THE EPA TO ESTABLISH A HAZARDOUS 
                             WASTE MANIFEST

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SUPERFUND AND WASTE MANAGEMENT

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2006

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
47-644                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                              ----------                              

             Subcommittee on Superfund and Waste Management

                   JOHN THUNE, South Dakota, Chairman
JOHN W. WARNER, Virginia             BARBARA BOXER, California
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
JOHNNY ISAKSON, Georgia              FRANK R. LAUTENBERG, New Jersey


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 28, 2006
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     3
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     8
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     2
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey, prepared statement.....................................    21
Thune, Hon. John, U.S. Senator from the State of South Dakota....     1

                               WITNESSES

Bodine, Susan Parker, Assistant Administrator, Office of Solid 
  Waste and Emergency Response, Environmental Protection Agency..     4
    Prepared statement...........................................    21
    Responses to additional questions from:
        Senator Jeffords.........................................    25
        Senator Lautenberg.......................................    26
Bond, Phillip J., president and CEO, Information Technology 
  Association of America.........................................    16
    Prepared statement...........................................    33
Coleman, Cheryl T., director, Division of Compliance and 
  Enforcement, South Carolina Bureau of Land and Waste Management     6
    Prepared statement...........................................    28
Florjancic, Frederick J. Jr., chief executive officer and 
  president, Safety-Kleen Systems, Inc...........................    14
    Prepared statement...........................................    30
    Responses to additional questions from Senator Lautenberg....    32

                          ADDITIONAL MATERIAL

Letters:
    Baker, Thomas M., director, Environment and Transportation, 
      Veolia ES Technical Solutions, L.L.C.......................    42
    Bond, Philip J., president and CEO, Information Technology 
      Association of America (ITAA)..............................    38
    Gray, Terrence, president, Association of State and 
      Territorial Solid Waste Management Officials (ASTSWMO).....    35
    Maris, Scott, president, Environmental Technology Council....    37
    Weiner, Peter H., Paul, Hastings, Janofsky & Walker LLP......    40


  CONSIDER S. 3871, A BILL DIRECTING THE EPA TO ESTABLISH A HAZARDOUS 
                             WASTE MANIFEST

                              ----------                              


                      THURSDAY, SEPTEMBER 28, 2006

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Superfund and Waste Management,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 406, Dirksen Senate Office Building, the Hon. John Thune 
(chairman of the subcommittee) presiding.
    Present: Senators Thune, Jeffords, Inhofe, Boxer.
    Senator Thune. Today's hearing will come to order.

  OPENING STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE 
                     STATE OF SOUTH DAKOTA

    I want to welcome everyone to our legislative hearing 
regarding a bill I introduced earlier this month, along with 
Chairman Inhofe and Ranking Member Jeffords. Our legislation, 
S. 3871, would direct EPA to begin a much-needed transformation 
regarding the tracking of hazardous waste.
    While the Resource Conservation Recovery Act that Congress 
passed in 1976 has done a great deal when it comes to 
protecting human health and the environment, the paper manifest 
process that is used to track federally regulated hazardous 
waste has turned into the single largest continuous paperwork 
burden imposed on regulated entities under Federal 
environmental law.
    On an annual basis, roughly 139,000 regulated entities 
track anywhere between 2.5 million to 5 million hazardous waste 
manifests. This paperwork burden has been estimated to cost 
States and the regulated community between $200 million and 
$500 million. This is largely due to the fact that each paper 
manifest is comprised of six carbon copies that must be signed 
and mailed to waste-generators and State agencies and then 
ultimately stored by each regulated entity.
    To underscore just how cumbersome this paper manifest is, 
the EPA in over 20 States don't even keep copies. The benefits 
of using electronic manifests are numerous. We will hear more 
about those benefits from today's witnesses. I would like to 
stress that the legislation my colleagues and I have introduced 
simply provides a voluntary alternative for regulated entities 
who wish to file their hazardous waste manifests in a more 
efficient manner, without the time-consuming paperwork burden 
they are currently faced with.
    Furthermore, nothing in this legislation seeks to weaken or 
in any way lessen the protections that currently exist under 
the uniform paper manifest.
    As we begin this morning's hearing, I would like to insert 
for the record a handful of letters that I have received in 
support of S. 3871, one of which is from Terrence Gray, 
president of the Association of State and Territorial Solid 
Waste Management Officials, who noted, ``It is appropriate, and 
many would say overdue in the 21st century economy to have the 
capability of using electronic reporting for such a tracking 
system. We are supportive of your efforts to initiate this 
process. It is our understanding the S. 3871 is the necessary 
first step in designating the detailed system for electronic 
manifesting, and for that reason we think it should go 
forward.''
    [The referenced documents follow on page 35.]
    Senator Thune. I look forward to hearing from our four 
witnesses today and hope that my colleagues will continue to 
work with me to see that this noncontroversial legislation is 
cleared by the full committee and ultimately passed by the 
Senate.
    Before we open up to our first panel of panelists, I would 
like to defer to my colleagues, Senator Jeffords, the Ranking 
Member on this committee.
    Senator Jeffords. Thank you, Mr. Chairman.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    I am pleased that we are holding this hearing on S. 3871, 
the Hazardous Waste Electronic Manifest Establishment Act, 
introduced by Senator Thune. I co-sponsored this legislation 
because it appears to be one of the rare examples in politics 
where everybody wins and nobody loses.
    The environment wins because an electronic manifest system 
will strengthen the tracking of hazardous waste from the point 
of generation to the ultimate disposal. Industry wins because 
an electronic manifest will significantly reduce compliance 
costs. The EPA estimates that the current paper-based system 
costs waste handlers and States between $193 million and $404 
million annually.
    Finally, the public wins because an electronic manifest 
system will enable the citizens, States, the Federal 
Government, and industry to access manifests for shipments of 
hazardous waste all over the country.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Mr. Chairman, I am pleased that we are holding this hearing on S. 
3871, the ``Hazardous Waste Electronic Manifest Establishment Act,'' 
introduced by Senator Thune.
    I co-sponsored this legislation because it appears to be one of the 
rare examples in politics where everybody wins and nobody loses.
    The environment wins because an electronic manifest system will 
strengthen the tracking of hazardous waste from the point of generation 
to ultimate disposal.
    Industry wins because an electronic manifest will significantly 
reduce compliance costs. The EPA estimates that the current paper-based 
system costs waste handlers and States between $193 million and $404 
million annually.
    Finally, the public wins because an electronic manifest system will 
enable the citizens, States, the Federal Government and industry to 
access manifests for shipments of hazardous waste all over the country.

    Senator Thune. Thank you, Senator Jeffords.
    The Senator from California, the Ranking Member of the 
subcommittee has arrived. Senator, would you like to provide an 
opening statement?

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Yes, I do. I have to apologize because I am 
going to stay a little bit for the questioning, but then I have 
an issue on the floor so I will have to exit, hopefully to 
return, but you never know.
    Mr. Chairman, thank you so much for this hearing to examine 
the potential benefits and concerns surrounding the use of 
electronic records to track hazardous waste. The current 
system, as we all know, relies on paper documents called 
manifests to track this waste. The reliability of the tracking 
system is critically important because we know what happens if 
there is an accident. First responders rely on the manifests so 
they know exactly what they are dealing with and what the 
hazards are. It is crucial. If there is a mistake there, it is 
a real problem.
    A reliable tracking system also helps deter improper waste 
disposal. Improper disposal of hazardous waste can lead to the 
creation of Superfund sites. We have over 100 Superfund sites 
where human exposure is not under control. You and I are trying 
very hard to work on that. We cannot afford to add to that 
list.
    A sound hazardous waste tracking system also ensures that 
the polluter, and not the taxpayer, pays for the costs 
associated with the cleanup if a problem develops with the 
waste disposal sometime in the future. We generate a great deal 
of hazardous waste in this country, an estimated 12 million 
tons of hazardous a year. There are 139,000 businesses and 
other entities that handle the waste.
    In 2003, California ranked first in the number of hazardous 
waste generators, with 2,500, and produced more than 445,000 
tons of waste. So clearly, this issue, Mr. Chairman, is very 
important to my State.
    Manifests give officials the information they need to 
protect communities. Congress should do what it can to make 
manifests easy to use, but we must not sacrifice safety for 
streamlining. First responders and other officials have a hard 
job and we can't make it more difficult.
    States, including my State of California, agree with the 
idea of moving to an electronic manifest system, but they want 
to make certain that it works. So I do look forward to hearing 
the testimony today.
    I have a lot of faith in high technology and progress, but 
we all know sometimes it doesn't meet our expectations. If we 
look around the voting system, for example, it is clear that 
you need backups. So I think there are some lessons, Mr. 
Chairman, that we can apply to this really good issue that you 
have brought before us.
    Thank you.
    Senator Thune. Thank you, Senator Boxer.
    With that, we will turn to our first panel. With us today 
is Susan Bodine, Assistant Administrator, Office of Solid Waste 
and Emergency Response at EPA. Welcome, Susan; also Cheryl 
Coleman, who is director, Division of Compliance and 
Enforcement with the South Carolina Bureau of Land and Waste 
Management.
    Ms. Bodine, if you would please share your testimony with 
us, and then Ms. Coleman.

 STATEMENT OF SUSAN BODINE, ASSISTANT ADMINISTRATOR, OFFICE OF 
    SOLID WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Bodine. Thank you, Mr. Chairman and members of the 
subcommittee.
    I am Susan Bodine, the Assistant Administrator of the 
Office of Solid Waste and Emergency Response at EPA. I am very 
happy to be with you here today to talk about EPA's efforts to 
develop a national electronic manifest system, or e-Manifest.
    I will summarize my testimony. I ask that my entire written 
statement be placed in the record.
    Senator Thune. Without objection.
    Ms. Bodine. A few days ago, I was on the phone talking to 
my father, and I was telling him I was going to be appearing at 
this hearing. I talked about the e-Manifest system. His comment 
was, ``Well, it is about time EPA joined the 21st century.'' I 
have to say, I couldn't agree more. It is certainly about time 
that with respect to our data collection and reporting, that we 
did join the 21st century. We are making very great strides 
toward that, and have many efforts underway that contribute to 
that.
    But we need your help. We have discovered that to have a 
uniform system that all users can use and trust, we actually 
need some additional legislative authorities, and that is what 
we are here to talk about today.
    I would like to thank Chairman Thune, Senator Jeffords, and 
Senator Inhofe, for their efforts to develop e-Manifest 
legislation. EPA supports your efforts and I look forward to 
working with the Chairman and the committee to address any 
issues that may arise as the bill moves through the legislative 
process.
    As you know, the Resource Conservation Recovery Act 
establishes a cradle-to-grave tracking system for hazardous 
waste. The method for accomplishing that is the manifest 
system. The manifest is created by the generator. It then is 
used to ensure that the right transporter is carrying the 
waste, and also to make sure that waste reaches its ultimate 
destination, whether it is treatment, storage or disposal.
    The final copy, then, after it has gone through all of its 
tracking steps, is then sent back to the generator so that the 
generator knows that the waste got to where it was supposed to 
get, again, that we don't have any midnight dumping situations.
    Now, States also require use of manifests, and I think it 
has been mentioned by Senator Boxer, 24 States in fact collect 
data and have tracking systems for their manifests. Generally, 
they take copies of the manifest and they manually enter 
information into their tracking systems.
    Now, all of these steps, whether it is by the generator, 
the transporter, or the ultimate disposal facility, all of 
these steps add up to a very significant paperwork burden. 
There are about 2.4 to 5.1 million forms each year, and that 
annual paperwork burden for States and the regulated community 
is between $200 million and $500 million.
    Now, we believe that if we have an e-Manifest system, that 
net savings, at only 75 percent participation in the system, 
that we would still have net savings of over $100 million a 
year. But that is not the only benefit of an e-Manifest system. 
Having an electronic manifest system will improve the overall 
effectiveness of a tracking program. We have the technology to 
put into the system automatic data quality checks to correct 
data entry errors. Right now, often there are mistakes on 
written manifests or they are simply illegible.
    Another benefit is we would be able to have real-time 
tracking of wastes. Right now, the generator doesn't know 
essentially the disposition of the waste until it has gone 
through all the various steps and then the final manifest is 
mailed back to them, which could be 90 days later. As we all 
know, technology is out there now that allows real-time 
tracking of shipments. Anyone who has sent a Federal Express 
package knows that you can go online and find out where your 
package is. We would be able to do the same thing now for our 
waste shipments.
    Finally, because we would have electronic data collection, 
we have a new opportunity for program management and a new 
opportunity, an additional source of data on hazardous waste. 
So that, again, is another benefit.
    Now, we have been trying to improve the hazardous waste 
management system. Just in September of this year, the uniform 
manifests went into effect. That is a tremendous step forward. 
It means every State is using the exact same manifests, and the 
same data fields. It is also a key step needed to establish an 
e-Manifest system.
    We had proposed to establish an e-Manifest system earlier 
that was decentralized. The comments we received on that 
proposal were negative. The communities and the stakeholders 
said no, we need a centralized system to have a system that 
they would trust.
    So after listening to all the stakeholders, we went back 
and issued a notice of data availability announcing that we 
would like to develop a centralized e-Manifest system. Now, we 
have made a lot of steps already toward that. For example, 41 
States have already got what we call nodes, which is a hookup, 
an ability to transmit data to EPA on our central data 
exchange. That is already happening and 41 States have that 
capability, and 9 are underway. So again, steps are going 
forward to essentially allow the seamless transfer of 
information between States and EPA.
    Now, earlier in 2005, we also tried to go forward to issue 
a contract to set up a national e-Manifest system under a 
provision of the Electronic Government Act that allowed for 
share and savings contracts. Unfortunately, that authority 
expired before we were able to complete that procurement, so 
now we are here very happy that the committee is considering 
legislation that would give us specific authority on e-
Manifests.
    After working on this issue, we realized what we need is 
the authority to collect and have user fees that will fund the 
e-Manifest system, and S. 3871 provides that authority. We also 
need the authority to enter into these performance-based 
contracts that are similar to the pilot program that was 
established under the Electronic Government Act. Again, S. 3871 
provides that authority.
    And then third, we need the authority to make sure that we 
have a uniform system that goes into effect in all States at 
the same time, and S. 3871 provides that authority as well.
    So in summary, EPA supports the enactment of legislation 
that would allow us to establish a national e-Manifest system. 
We think that the benefits are there, not only to the regulated 
community, not only to States, but also to regulators. It is 
really a win-win situation for all, as Senator Jeffords said.
    So EPA looks forward to working with the committee and with 
Congress to develop legislation that would provide us with 
these authorities, and again, would provide an efficient and 
effective e-Manifest system for everyone.
    Thank you and I would be happy to answer any questions.
    Senator Thune. Ms. Coleman.

     STATEMENT OF CHERYL T. COLEMAN, DIRECTOR, DIVISION OF 
 COMPLIANCE AND ENFORCEMENT, SOUTH CAROLINA BUREAU OF LAND AND 
                        WASTE MANAGEMENT

    Ms. Coleman. Good morning, Chairman Thune, Senator Jeffords 
and Senator Boxer. I bring you greetings from the State of 
South Carolina, and I thank you for the opportunity to appear 
before you today.
    As you know, the Resource Conservation and Recovery Act 
established authority for EPA to develop a preventive system to 
control the growing volume of municipal and industrial waste 
through national goals designed to protect human health and the 
environment from potential hazards of these wastes, conserve 
energy and natural resources, reduce the volume of these 
wastes, and ensure that the wastes are managed in an 
environmentally sound manner.
    The hazardous waste program managed under RCRA Subtitle C 
is a cradle-to-grave system designed to ensure appropriate 
management of these wastes from generation to disposal. The 
hazardous waste manifest is an essential tool for monitoring 
and tracking hazardous waste from the time it leaves the 
generator facility where it was produced, until it is delivered 
to the destination facility for storage, treatment and/or 
disposal.
    Both the Department of Transportation and the Environmental 
Protection Agency require the manifest, as do states. Each 
entity handling the waste as it is transported to its 
destination is required to sign and retain a copy of the 
manifest. This results in accountability and responsibility for 
all involved in the disposal process.
    Once the destination facility receives the waste, a signed 
copy of the manifest is returned to the generator, thus 
confirming proper delivery of the entire shipment. EPA enables 
States to assume primary responsibility for implementing the 
RCRA hazardous waste program, and as such, most States have 
requested and received authorization for the core elements of 
the RCRA program.
    As an authorized State, South Carolina applauds the 
inclusion of electronic reporting of hazardous waste activities 
in the hazardous waste manifest system and fully supports this 
initial step in that process.
    S. 3871 primarily focuses on the design of a system and 
does not identify a role for States other than membership on 
the proposed hazardous waste electronic manifest system 
governing board, and the requirements for development of the 
regulations. As a supporter of the concept, South Carolina 
offers the following comments.
    S. 3871 should clearly state that participation in the 
electronic manifest reporting system is voluntary. Companies 
may be unable to submit this information electronically due to 
limitations with funding and technology. The definition of the 
term ``user'' should be clarified. The current definition could 
be interpreted to mean that use of the electronic manifest 
process is mandatory, even though paragraph B indicates 
participation is voluntary.
    In addition, States accessing the information as part of 
the regulatory process could be considered users of the system 
and incur fees. The system should be designed in a manner that 
is inclusive of existing State regulatory programs and current 
manifest procedures, and not require additional State financial 
resources.
    It is unclear if potential users will incur fees during the 
development stages. Paragraph G(b)(2), effective date of 
regulation, states that regulations promulgated by the 
Administrator relating to electronic manifesting of hazardous 
waste shall take effect in each State as of the effective data 
specified in the regulation. States authorized to implement the 
RCRA program in lieu of EPA have State-specific statutory 
requirements for promulgating regulations, and these 
requirements may be inconsistent with the timeframe established 
in this paragraph. We respectfully request that this wording be 
modified to recognize State requirements for promulgation of 
regulations.
    This bill does not address the importance of the manifest 
in the transportation phase for waste sent for treatment, 
storage, and/or disposal. Specifically, it does not identify 
how inspectors and/or emergency response personnel will be able 
to access electronic manifests to identify waste in transit. 
This information is vital, particularly in the event of an 
emergency.
    For example, in South Carolina, there have been several 
incidents where emergency personnel responded to a spill of 
hazardous waste and the transport vehicle driver's English 
proficiency was limited. The absence of a paper manifest could 
have delayed or resulted in inappropriate response activities 
as it includes information needed for appropriate response 
activities.
    Electronic manifests would facilitate pre-inspection 
activities for State regulators. Because South Carolina, like 
many other States, does not receive copies of manifests, access 
to this information prior to the actual inspection would 
greatly enhance the inspection process.
    The regulation should also not inhibit public access to the 
information. Many States have freedom of information 
requirements that are broader in scope than Federal 
requirements.
    In conclusion, we recognize that paragraphs five through 
eight can and should be more thoroughly addressed through the 
promulgation of the regulation stage of this process. We wish 
to take this opportunity to emphasize the importance of 
including State representatives and strongly encourage this 
committee to include steps to ensure that States are active 
participants in subsequent phases of regulation development.
    Thank you.
    Senator Thune. Thank you, Ms. Coleman. It looks like we are 
going to be joined by the Chairman of the full committee here 
for a statement, but since he hasn't returned yet, we will 
proceed to questions. All right. Here he is. I got his 
attention.
    Senator Inhofe. You did, you did.
    Senator Thune. Mr. Chairman, welcome. Do you have any 
statement you would like to make?

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you. I am going to submit my 
statement for the record, but this is something that I, having 
been a former Mayor, I am very sensitive to some of this stuff. 
I strongly support this. I am a co-sponsor of your legislation 
to correct this problem, but it is something that we shouldn't 
have to do. It shouldn't take legislation to do this. 
Unfortunately, it does, and by doing this, I am going to lose 
some of my real good speaking material that I have used before.
    According to EPA, the paper manifest system generates up to 
156 tons of paper each year. It takes roughly 17 trees to 
create a ton of paper. Are you listening to this, Senator 
Boxer?
    [Laughter.]
    Senator Inhofe. This means that RCRA's proposed 
environmental purposes require 2,652 trees a year.
    Senator Boxer. And we need trees [remarks off mic].
    Senator Inhofe. You got it.
    [Laughter.]
    Senator Inhofe. Ask her if she would quit interrupting me, 
would you please?
    [Laughter.]
    Senator Inhofe. Anyway, this is something I strongly 
support, and I am glad I share with my friend, who will be 
seated next to me next year in the whole committee, that I am 
glad that science is finally coming around and refuting all 
these things you have been saying all these years about global 
warming.
    [Laughter.]
    Senator Inhofe. Thank you, Mr. Chairman.
    [Laughter.]
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    As a former Mayor, I know all too well how Federal requirements can 
effectively tax local and State governments. Federal requirements 
should be flexibly applied so that each State can implement them in the 
ways most efficient for them. The paper manifest system under the 
Resource Conservation and Recovery Act was not flexibly applied in the 
last two and a half decades.
    The bill that Senator Thune has sponsored and that I am proud to 
co-sponsor with the ranking member seeks to change that.
    This legislation seeks to reduce time, staffing, and financial 
burdens on States as they comply with Federal requirements by 
transforming the manner in which hazardous waste data is collected, 
stored, and accessed.
    Frankly, I am disappointed that the Federal Government needs 
legislation to do something that seems so obvious in this day and age.
    For those concerned about how much paper is used for this 
inefficient and burdensome requirement----
    According to EPA, the paper manifest system generates up to 156 
tons of paper per year. It takes roughly 17 trees to create a ton of 
paper. This means that RCRA's supposed environmental purpose requires 
2,652 trees per year.
    Rather than benefit from the efficiencies that computers can 
provide, current regulations require a paper manifest system comprised 
of six carbon copies which must be filled out and signed by each person 
who handles the waste. Those copies must not only accompany the waste 
as it is transported but must be mailed to generators and State 
agencies and kept on file by each regulated entity.
    EPA estimates that roughly 146,000 regulated entities track between 
2.5-5 million manifests each year.
    The current system is far too burdensome on all parties, especially 
the private sector and State managers.
    I sincerely hope that we can pass this noncontroversial bill 
quickly.
    I look forward to hearing from our witnesses.

    Senator Thune. Thank you, Mr. Chairman.
    I don't know if we want to start down that road today. This 
was scheduled to be a fairly brief hearing.
    [Laughter.]
    Senator Thune. Thank you, Mr. Chairman, very much for your 
statement and your comments in support of the legislation.
    In terms of questions, Ms. Bodine, could you explain to the 
committee why the share and savings approach in the bill is so 
critical to the creation of an e-Manifest system?
    Ms. Bodine. Thank you, Senator Thune.
    Yes, that is the approach that had been authorized under 
the e-Government Act and the authority that expired. That is a 
tool that would allow EPA to enter into a contract with a 
vendor where the vendor would incur the costs up front of 
developing the e-Manifest system, and then would recoup those 
costs from the fees paid by the use of the system afterward. So 
it is a very flexible procurement tool and we believe it is one 
that, first, will allow us to get an e-Manifest system up and 
running most quickly; and second, then is very equitable 
because it establishes an e-Manifest system that is paid for, 
funded for by the users themselves.
    Senator Thune. If the legislation were enacted into law, 
let's say just hypothetically, early next year, how long would 
it take EPA to get an e-Manifest system up and running?
    Ms. Bodine. We have already started working on rulemaking, 
and so we are proceeding in parallel now with the legislation. 
We can't actually promulgate until we get the legislative 
authority, but we are working now. I firmly believe that the 
deadlines in your legislation are ones that we can meet. We can 
get the rule promulgated within a year, because they have 
already started, and that we would be able to have the system 
in place within 2 years after that because we will need some 
time to develop the contract and get the system up and running, 
but the 3 years is definitely achievable.
    Senator Thune. Ms. Coleman, in your opinion, is there any 
reason not to move forward with creating this sort of a system?
    Ms. Coleman. No, sir. We fully support the establishment of 
this system as part of the reporting system.
    Senator Thune. I don't know, maybe this isn't a fair 
question for you to do this off of your head, but what would 
you estimate that a State like South Carolina could save if it 
could access hazardous waste manifest data in near real-time?
    Ms. Coleman. I think that the savings, monetarily I can't 
make an estimate, but I believe that being able to access this 
information would greatly increase our ability to be able to 
regulate effectively. We need to be able to identify potential 
problems. RCRA is a preventive program, and I think that the e-
Manifest system would allow us to be able to identify potential 
problems more quickly, and the savings in cost I cannot even 
begin to estimate how much it would cost to save lives and our 
environment.
    Senator Thune. As someone who is involved with enforcement 
regarding the management of hazardous wastes, it would seem 
that the bill would drastically improve the manner in which 
your State tracks the movement of regulated waste. Is there a 
particular area that you think that this legislation would help 
your State in compliance and enforcement?
    Ms. Coleman. I do. We view the manifest as an 
accountability and a responsibility document. It is in fact a 
validation that this generator did in fact produce this waste; 
that these transporters did transport this waste; and this 
facility, the destination facility did receive this waste.
    We monitor those closely and take appropriate enforcement 
action if there is a failure to comply with any of that. We do, 
however, want the system to be designed in a manner that allows 
us to validate the e-signatures, to say that this company did 
in fact enter this data, and be able to use that in a court 
proceeding if necessary.
    Senator Thune. I want to get back to one point that you 
made in your testimony. Maybe this is a question for Ms. 
Bodine, because you referenced the concern about having States 
involved in the process, the rulemaking et cetera. Ms. Bodine, 
how involved would States be in future rulemaking that would 
come from the legislation? Is there any reason to believe that 
some of the outstanding issues that were referenced in Ms. 
Coleman's testimony couldn't be addressed?
    Ms. Bodine. First, the States are involved in the 
rulemaking. We have five or six States that are already on our 
work group. In addition, we make sure that we get the comments 
and input from all States through the organization, ASTSWMO, 
the Association of State and Territorial Solid Waste Management 
Officials. So we definitely are involving and will continue to 
involve States in the process.
    Second, yes, the issues that have been raised, we have 
identified the authorities that we need, and then the specific 
implementation issues could easily be addressed in the 
rulemaking.
    Senator Thune. Great.
    I understand, Senator Jeffords, that you want Senator Boxer 
to go next for questions? OK. Senator Boxer is recognized.
    Senator Boxer. Thank you so much.
    Thank you, Senator Jeffords. As I said, I need to run down 
to the floor of the Senate.
    I just have this opportunity, Ms. Bodine, to ask you when 
Senator Thune and I can expect an answer to our letter. We did 
get a response back and said we are working on a letter; we 
will have it for you as soon as possible, regarding the out of 
control sites. So I wondered if you had a date-certain that we 
could count on getting it?
    Ms. Bodine. The letter is in our clearance process, so I 
would expect it shortly. I don't have a date-certain. In 
addition, there is some data----
    Senator Boxer. Shortly meaning within the next 2 weeks?
    Ms. Bodine. Yes.
    Senator Boxer. OK, good. OK, that is great, because we are 
looking forward to that.
    Just so, Mr. Chairman, you know where I am coming from on 
this, I want to see this legislation go forward, but I do share 
Ms. Coleman's concerns about States feeling comfortable with 
it. We did receive a letter from California, which I am going 
to go over with you and your staff because I think they really 
have some good ideas on how to make this the best it can be.
    I wanted to ask Ms. Bodine just one more question, and then 
I will leave. That is, EPA currently has an electronic 
docketing system where it places records that support the 
Agency's rulemaking online. I have printed out an example of 
that, so that the public can access this information over the 
Internet.
    So you have an electronic docket for the e-Manifest 
rulemaking process, but ironically it fails to make available 
documents that were submitted to EPA as far back as June 2001. 
So I always have problems because, again, high-tech is the way 
to go. Look, I come from the State that invented it, pretty 
much, notwithstanding the Defense Department's role, which was 
huge. Once that happened, California, Silicon Valley and the 
rest. So I want to move in this direction.
    So I am a little worried about your own e-docketing system 
at this stage being flawed when somebody goes up and reads 
about this, and they have no way to access it. For example, 
comments by Russell Hanson, manager of Hazardous Materials at 
the University of Missouri, they can't get the record.
    Ms. Bodine. Senator, I would have to go back and 
investigate the issues that you are identifying with respect to 
EPA's comment docket, but in the context of e-Manifest, we 
certainly in the rulemaking and then in the contract that we 
would be negotiating with a vendor, we would be putting in all 
of the quality control and information security and ability to 
verify signatures, all of the issues that you have identified, 
that California has identified, that South Carolina has 
identified. Those would all be addressed in the rulemaking and 
in the contract itself. So we would be dealing with those 
issues.
    Senator Boxer. OK. My only point here is, it is only as 
good as what you put in the system, right? The information.
    Ms. Bodine. The information.
    Senator Boxer. An electronic document is only as good as 
the system it gets in. Here, you don't have the system 
operational, and there are documents posted here from 2001, but 
if a citizen goes on, and this is just about this particular 
rulemaking. It concerns me. I have been around too long. I know 
that the best intentions don't always turn out. I worry, that's 
all.
    So I think, Mr. Chairman, as we move forward, I am very, 
very anxious to make this work. I think we can. I think we just 
want to make sure in your legislation we have taken into 
account the concerns of the various States. Again, it is not 
really rocket science. It is just simple, I think, goals that 
are clearly stated and to make sure that we have the backup 
documents that we need.
    Before I leave, I want to acknowledge that unless something 
happens and the Chairman of the full committee calls a hearing 
on global warming, this will be Senator Jeffords's last hearing 
with us. Yes. I just wanted to say that we will all miss you 
and we look forward to staying in touch with you on all the 
important issues.
    Senator Jeffords. OK, thank you.
    Senator Boxer. All right.
    [Applause.]
    Senator Thune. Thank you, Senator Boxer. With the use of 
all that technology that California puts out, you will be able 
to stay in touch with Senator Jeffords, I am quite certain.
    [Laughter.]
    Senator Thune. I, too, want to recognize Senator Jeffords 
and thank you for your very distinguished service to this 
committee. This very well could be the last hearing. I don't 
know that we have any global warming hearings scheduled.
    [Laughter.]
    Senator Thune. In the event that happens, we will have 
another opportunity to recognize you, but we want to thank you 
and wish you absolutely the very best.
    Senator Jeffords. Thank you.
    Senator Thune. Do you have any question, Senator?
    Senator Jeffords. Yes.
    Ms. Bodine, as the head of the Nation's hazardous waste 
program, you are obligated by the Resource Conservation and 
Recovery Act to promulgate regulations assuring that the use of 
a manifest system will track hazardous waste from the point of 
generation to ultimate disposal. If this bill becomes law, can 
you guarantee that the future electronic manifest regulations 
will give State agencies and the Federal Government the same 
ability to track manifests and determine accountability as the 
current paper system?
    Ms. Bodine. Yes, Senator Jeffords, that is exactly the kind 
of system that we intend to establish.
    Senator Jeffords. Based upon your experience with the paper 
manifest system, if this bill, were it to become law, what 
information would be available to the public in an electronic 
manifest?
    Ms. Bodine. The timing of when information would be public 
is something that we have received comments on in response to 
the NODA and is something that we would want to work out in the 
rulemaking process. There are issues. Well, right now some 
States have tracking systems where they manually key in 
information to their system and then it becomes public later 
because there is a lag time.
    Now, with an electronic manifest system, we would be able 
to have real-time tracking, but there might be security reasons 
or confidential business information reasons why we wouldn't 
want to make that information available immediately. That isn't 
to say that later it wouldn't then become publicly available 
within generally the same time period that some States make it 
publicly available now.
    Senator Jeffords. I think you have answered this, but I 
will ask it anyway. If this bill were to become law, what are 
your estimates for how promptly this information would be 
available to the public, States and first responders?
    Ms. Bodine. Well, States and first responders would have 
the information right away. Nothing in this legislation and 
nothing in our rulemaking would changes any of the requirements 
under the Hazardous Materials Transportation Act, which 
requires that a paper manifest follow and be carried with the 
transporters. That would still be in effect. It is all the same 
information that we have in our uniform manifest that is in 
place right now. That paper manifest would still be following 
the shipment so all of that information would still be 
available to the first responders.
    Senator Jeffords. Ms. Coleman, I know that your State of 
South Carolina has permit requirements for those who transport 
hazardous waste. If this bill becomes law, how would the 
electronic manifest system work with this permit system?
    Ms. Coleman. You are absolutely correct. We do require 
hazardous waste transporters to obtain a permit, and that 
permit is put in place for several reasons. One, it is to 
verify that that transporter has appropriate insurance coverage 
should there be some type of catastrophic event. Two, he or she 
is also saying to the State, we have trained our drivers in how 
to manage this material while it is in transit. We have very 
real concerns about the transportation phase. And three, that 
that driver is able to provide that information to the 
inspectors or emergency personnel should there be some sudden 
event that would require them to perform some type of response 
activity.
    So we would be looking during the regulation development 
phase of the electronic manifest system for those abilities to 
remain. It is very important that we be able to access that 
information in a timely manner and be able to respond 
appropriately. You certainly don't want to put water on a 
water-reactive waste. So we need to be able to access that 
information, and I was very happy to hear Ms. Bodine say that 
that is a very real intent of EPA that they will include that 
information in the transit phase.
    Senator Jeffords. Thank you.
    Senator Thune. Thank you, Senator Jeffords.
    And thank you very much, panel, for your testimony and for 
your insights. We appreciate it, and welcome your continued 
input as we move forward with the legislation, and hopefully 
ultimately getting it enacted, and want to make sure that we 
are addressing as best we can the needs that the States have as 
a stakeholder in this, obviously an important partner in making 
sure that we get it right. So thank you very much.
    We will ask the next panel to come forward. Our second 
panel consists of Frederick Florjancic, who is chief executive 
officer and president of Safety-Kleen Systems, Incorporated; 
and Mr. Phillip Bond, who is president and CEO of Information 
Technology Association of America.
    I will ask those gentlemen to come forward. We welcome you 
both to the subcommittee and look forward to your testimony.
    Mr. Florjancic, if you would like to start off, that would 
be great.

  STATEMENT OF FREDERICK J. FLORJANCIC, JR., CHIEF EXECUTIVE 
       OFFICER AND PRESIDENT, SAFETY-KLEEN SYSTEMS, INC.

    Mr. Florjancic. Thank you and good morning, Mr. Chairman, 
Senator Jeffords. Thank you for inviting Safety-Kleen to 
testify on S. 3871, the Hazardous Waste Electronic Manifest 
Establishment Act.
    I have filed for the record more extensive comments which I 
will summarize for the committee.
    I am Fred Florjancic, and I am CEO and president of Safety-
Kleen Systems, which is a major environmental service provider 
throughout the United States, Canada and Puerto Rico. We are 
now expanding into Mexico as well. We employ more than 4,500 
people in North America at more than 200 locations, of which 
approximately 4,100 people at 190 locations are in the United 
States. We provide more than 400,000 customers of all sizes, 
including 440 of the Fortune 500 companies with safe, compliant 
recycling and environmental services.
    I am also proud to note that Safety-Kleen is the leading 
re-refiner of used oil in North America, collecting more than 
200 million gallons of waste oil every year, re-refining it 
back into high-quality lubricating oil and other products that 
extend the life of this precious resource. Safety-Kleen also 
collects approximately 300 million gallons of hazardous waste 
annually in North America.
    I am particularly pleased to be here today in support of S. 
3781. This is an important piece of legislation for our 
country, for our industry, and for Safety-Kleen. We strongly 
support S. 3781 and compliment the Subcommittee Chairman Thune 
and Senator Jeffords and Committee Chairman Inhofe for your 
hard work and leadership in addressing this issue and crafting 
an extremely positive bill that we believe can dramatically 
improve the present hazardous waste manifest system.
    I am comfortable expressing our support because at Safety-
Kleen, we know manifests. Because Safety-Kleen serves so many 
different types and sizes of customers, we believe Safety-Kleen 
is the Nation's largest individual user of manifests, the 
paper-based manifest tracking system.
    For example, this year Safety-Kleen will use between 
600,000 and 700,000 paper manifests, and just today we will 
generate more than 2,400 manifests for our customers to 
complete. During my testimony here, we will issue 25 manifests 
for customers to complete for waste shipments taking place 
somewhere in the United States.
    Needless to say, this proposed legislation could have a 
significant and we believe positive impact on Safety-Kleen, our 
customers, the industry, and State regulatory agencies who play 
a key role in implementing the manifest system.
    The current requirement to use a manifest has existed for 
more than 25 years. Manifests are a key element of the Resource 
Conservation and Recovery Act, known as RCRA, which was adopted 
in 1976. The purpose of the manifest system was to help 
eliminate a significant problem at the time, that was then 
known as orphaned waste, waste that could not be tracked back 
to its origins and as such became a burden on the American 
taxpayer.
    Since 1980, RCRA has required that a manifest accompany all 
shipments of hazardous waste, and that has brought order, 
discipline and accountability to our national hazardous waste 
management system. Manifests contain two key types of 
information. First, what a waste shipment is comprised of so 
that in the event of an emergency, the first responders know 
the materials that they would be managing. Second, the manifest 
identifies who ships the waste, who is transporting the waste, 
and where it is ultimately headed so that it can be tracked at 
every step of the way to ensure proper disposition.
    The manifest tracking system is clearly a key element in 
avoiding past problems associated with improper waste handling 
and disposal, but the question today is can we do it in a 
better way. I believe the answer is yes, and that S. 3871 
provides a solid framework for moving in that direction.
    Our current paper-based manifest system places an enormous 
paperwork burden on regulated companies, regulated customers 
and State regulatory agencies. The recent economic analysis 
prepared by the EPA estimates more than 92,000 regulated 
entities track between 2 and 4 million waste shipments per 
year. Keep in mind that each manifest form is six copies 
containing 83 fields of information. The current form must be 
filled out by the customer using a combination of computer-
generated and manually inserted information, and then signed in 
ink and physically carried with each waste shipment.
    Copies and sometimes multiple copies have to be mailed to 
generators and State agencies, and we have to keep permanent 
records at all of our facilities. For Safety-Kleen, our 
mailings costs alone are close to $1 million a year, and the 
paperwork burden is so significant that 22 States no longer 
even accept paper copies of the manifest.
    Frankly, we are today using a manifest tracking system that 
was developed before the widespread use of computers and 
information technology. Today's system works, but it is a 
dinosaur. It does not take advantage of any of the quality, 
cost reduction, and productivity improvements that computers 
allow.
    The potential benefits of moving forward to include an 
electronic manifest system are significant. For example, the 
system would provide that States with manifest data would have 
easily usable, searchable and storable formatted information. 
It would allow the regulated community to develop computer-
based manifest systems that would improve data quality, 
streamline transactions for customers, and save tens of 
millions of dollars each year by reducing the paperwork burden.
    Additionally, the e-Manifest system would produce a 
national security benefit by improving our overall ability to 
track hazardous materials. Under the current system, it takes 
weeks to provide verification of information to generators or 
regulators when a waste shipment is complete.
    I note for the committee five specific items that S. 3871 
should include. Safety-Kleen believes that any fee structure 
established to pay for the e-manifesting system must be limited 
to providing funding for the designing and implementing of the 
program specifically and exclusively. In other words, any fee 
structure must not become a de facto tax or fund other 
programs.
    Second, the e-Manifest system must be cost-effective to the 
regulated community and the Government as a whole, and we 
endorse the bill's proposal to have a qualified IT contractor 
build the system and then receive payment on a per-manifest 
basis.
    The regulated community, the industry needs to have a place 
at the table to provide recommendations to the Administrator of 
the e-Manifest system and the system must be flexible and 
scalable to take into consideration not only today's needs, but 
tomorrow's manifesting requirements. It should provide real-
time information for the generation, transportation and 
disposal of waste.
    In closing, I believe S. 3871 provides a solid foundation 
for moving our Nation into the 21st century hazardous waste 
manifest tracking system. Enactment of this legislation will 
produce significant improvements in data quality, real-time 
tracking capability, cost reduction and productivity 
improvements, not only for industry, but the State and Federal 
regulatory agencies.
    Thank you again for the opportunity to testify today, and I 
would be pleased to answer any questions.
    Senator Thune. Thank you, Mr. Florjancic. Your entire 
statement will be made a part of the record.
    Mr. Bond, it is nice to have you back on Capitol Hill. You 
served with distinction in the Congress as a member of the 
staff of Jennifer Dunn over there, and someone that I worked 
with quite a bit at that time, and living proof that there is 
good life after your service in Congress. Correct?
    Mr. Bond. There you go.
    Senator Thune. We welcome you in front of the committee 
today and would love to hear your testimony.

 STATEMENT OF PHILLIP J. BOND, PRESIDENT AND CEO, INFORMATION 
               TECHNOLOGY ASSOCIATION OF AMERICA

    Mr. Bond. Thank you, Chairman Thune and Senator Jeffords 
for the opportunity to present on behalf of the 325 corporate 
members of the Information Technology Association of America. 
Obviously, we have a very favorable perspective on this, and I 
also want to thank you for your continued leadership to amend 
RCRA to make such a system possible.
    I will try to edit myself in real-time for the benefit of 
the Senators, to spare you recitation of some of the statistics 
and other things that you have heard. But I do want to 
underscore the point that this is fundamentally a very creative 
approach, a 21st century approach that we believe solves 
problems for the public, for policymakers, for taxpayers, 
streamlines the process, makes it more efficient, just as IT 
has done throughout the national and global economies, and 
State governments, and certainly can do in this process.
    As has just been noted, I want to underscore that in 
addition to the policy and environmental benefits, a very real 
national security, homeland security benefits of such a system 
as well.
    We know the reasons for a manifest system. They are 
legitimate reasons. You need to know in the event of an 
incident where materials are. You have to be able to track that 
shipment all the way to the final disposal facility to meet the 
environmental and national security goals inherent.
    This system is a bit of an anachronism in this information 
age. The paperwork burden is extensive. You have heard some of 
the statistics generated by EPA itself in terms of the number 
of regulated entities and shipments that are covered, with each 
manifest manually filled out, signed with pen and ink, 
physically carried, mailed to multiple sites, and then stored 
among facility records as well.
    Ironically, at the end of this, some States charge a fee to 
cover the processing, but that fee also goes to convert the 
data often to an electronic format at the end of the process. 
So this would perhaps put it in the right place at the front of 
the process. It really does seem to us and the IT industry at 
large as a system that is still stuck in the last century, too 
costly, too manpower-intensive, too cumbersome, too time-
consuming.
    Notably, especially I think for the committee and 
policymakers in general, I want to note that the information 
often does not get where it needs to go. Currently, 22 States 
and the EPA do not collect copies. States that do not receive 
copies often simply store them without review. So the 
information is bottled up and not useful.
    The e-Manifest proposal would solve these problems. It 
would help States. It would help the public. It would help 
members of this committee, policymakers, all would know 
exponentially more about where these materials are at any given 
time. You heard earlier from EPA itself the estimates of the 
savings, some $100 million and more.
    Homeland Security has been mentioned. I would just note 
that there are clear benefits to knowing the nature of a 
shipment, its location, and the risks inherent, the parties 
involved in it, in a matter of minutes at the most, or even 
seconds, instead of hours, days or weeks under the current 
system. We can know if there has been any kind of delay, or if 
we pick up intelligence about any sinister plans and be able to 
respond quickly.
    Authentication has been just kind of referenced slightly in 
the earlier panel. That is an issue, I think, but it is hardly 
insurmountable in the 21st century. I would observe that 
Congress itself accepts digital signatures as a way to secure 
important documents. Lobbying reports, for instance, are 
required to be filed and authenticated with digital signatures. 
Digital signatures are now widely accepted throughout the 
financial, legal and insurance sectors of our economy.
    An electronic process of this type with the use of digital 
signatures would actually be more secure, rather than less 
secure, in a less secure system where the paper often is 
ignored or filed without review. This would be a more secure 
system.
    In short, an elegant solution to a rather ugly problem, a 
21st century approach. It also is a 21st century approach in 
terms of how you get the private sector to bid, to ask bidding 
companies at their own expense to come up with a system. The 
winning bidder then would recover their investment through a 
user fee as part of the initiative by EPA. This allows industry 
to make the initial investment. It allows private industry to 
share in some of the risk, and then ultimately the reward of a 
successful system.
    Without the legislation that you are considering, fees that 
would be collected under the e-Manifest system, under current 
law those would be considered Federal revenues and prohibited 
from some of the uses envisioned. So the legislation truly is 
necessary. As we mentioned, this is not a new burden. Fees are 
being collected now.
    Finally, I would just like to note that the legislation 
upholds the broader aims, the very bipartisan aims of e-
Government, making bureaucratic government less so, making it 
more efficient, enhancing security, providing more information, 
making government better in a fiscally responsible way. It 
might be described as government of, by, and for the people.
    Thank you.
    Senator Thune. Well put.
    Let me proceed to questions for this panel. I will start 
with Mr. Florjancic. Where does Safety-Kleen currently store 
its paper manifest forms?
    Mr. Florjancic. We currently store in just about all 200 
facility locations, multiple locations. Obviously, an 
electronic manifest system would allow us to do that much more 
cheaply, much more effectively, and much more efficiently, and 
make those records available real-time.
    Senator Thune. We talked a little bit about how we would 
structure this system in terms of underwriting the cost of 
getting it up and operating. What do you think would be a 
reasonable fee, for your company to use an electronic manifest 
system? Do you care to comment on that?
    Mr. Florjancic. Senator, I don't have a specific dollar in 
mind, except to say that the current manifest system costs 
Safety-Kleen approximately $10 to $12 million a year to 
execute. That includes printing fees and I am sure includes 
some permitting fees, et cetera, et cetera. I don't know 
precisely what the savings would be. I can tell you that there 
would be some savings, and clearly the efficiency factor is the 
most important that we are after.
    Senator Thune. Mr. Bond, based on your understanding of how 
the current paper manifest system operates, are there any 
concerns among the IT community that a system couldn't be 
adequately designed to meet the needs of the regulated 
community, the States and the Federal Government?
    Mr. Bond. No. In fact, there is a high degree of confidence 
based on many other e-Government applications, the wide use of 
digital signatures and so forth, that indeed this could be 
constructed in this creative way envisioned in the legislation, 
that would be very efficient both to the government, but also 
efficient in terms of operation, very fast.
    Senator Thune. Under the competitive bid procedures that 
are outlined in the legislation, what is your assessment as to 
the number of qualified bidders? Would there be any shortage of 
those who would want to bid on the opportunity?
    Mr. Bond. Yes, Mr. Chairman. I can assure you, based on 
interest expressed directly by a number of companies just at 
our association, that there is no shortage of interest in 
companies able and interested in pursuing exactly this kind of 
design.
    Senator Thune. Senator Jeffords.
    Senator Jeffords. Mr. Florjancic, in your written 
testimony, you state that public access to electronic manifests 
would provide an advantage to your competitors because it may 
include business information. Do you think that limiting the 
public's access to information about toxic waste traveling 
through their neighborhood is justified because of financial 
considerations?
    Mr. Florjancic. Senator, I believe that real-time 
information can be made available to certainly the regulating 
areas, both State and Federal, and the public can have access 
under the Freedom of Information Act. But I believe in the 
State of California, in particular, let me cite how they handle 
the confidential business information of customer lists, et 
cetera. That is what I am concerned about:

    ``The department shall make [available] all of the information in 
quarterly reports submitted pursuant to this subdivision, available to 
the public through its usual means of disclosure. . . .'' [each State 
has their own methodology] ``. . . except that the department shall not 
disclose the association between any specific transporter and specific 
generator. The list of generators served by a transporter shall be 
deemed to be a trade secret and confidential business information . . 
.'' for various purposes.

    So even under the current paper manifest system in 
existence, the States have taken care of that issue. California 
even has it in their statute. So all we were concerned about, 
Senator, was protecting the confidential trade secret customer 
information.
    In terms of the actual hazardous waste being transported, 
that is not an issue.
    Senator Jeffords. How will the electronic manifest system 
impact your company's handling of hazardous waste?
    Mr. Florjancic. Really, the physical handling of the waste 
would not be impeded whatsoever. It would continue to be 
handled in the same way that we currently do it, meeting both 
State and Federal regulations. It would simply allow us to more 
effectively transmit information to the appropriate regulators 
and the originators of the waste.
    Senator Jeffords. Mr. Bond, EPA will maintain the Web site 
for the electronic manifest system. As we all know, sometimes 
computer servers fail. Would hazardous waste generators, 
transporters and receiving facilities that use electronic 
manifests delay transporting waste? Or would they temporarily 
revert to the paper manifest system?
    Mr. Bond. Well, a couple of points, one that I learned this 
morning from listening, and one technological point, learning 
this morning that the paper would go with the cargo. You have 
one redundant backup there. But then as a technological matter, 
for something this important, certainly it is not at all 
difficult to have a mirrored site and a backup and so forth, so 
that electronic recovery can be very, very rapid.
    If I could, Senator, too, to your question asked of the 
other panel, I just wanted to observe that the concerns about 
business proprietary information are real. Certainly, our 
members had those concerns as contractors with government, too. 
I just wanted to observe that if you imagine a data base with 
all of the information of the e-Manifest system here, EPA may 
be able to pull all of the information out of that data base, 
including proprietary information they may need to see.
    On this side, the public would pull less information out of 
that, so that you can take out the proprietary information. 
Indeed, you would have perhaps some homeland security issues to 
think about what you would even want on the public-facing side 
of that. But it is technologically very easy to take care of 
both concerns, make sure EPA has all the detail they need, then 
the public has what they need as well.
    Senator Jeffords. Under the electronic manifest system, how 
would regulated parties certify that they received the 
hazardous waste or sent it offsite?
    Mr. Bond. Let's see. The digital signature would authorize 
and authenticate at both ends of the process, just as is done 
in millions of financial transactions every day. There are 
different technologies for and levels of encryption for that so 
that it is secure and done in an electronic method so that it 
is instantaneous.
    Senator Jeffords. Thank you.
    Mr. Bond. Yes, thank you.
    Senator Thune. Thank you, Senator Jeffords.
    I just want to point out that I have a copy here of what is 
a paper manifest which seems to me that, for the number of 
transactions and the number of times each company like Safety-
Kleen and others around the country have to keep track of this, 
at a cost of almost a $\1/2\billion annually, that in light of 
the technology that we have today, a paper-driven system really 
is kind of a dinosaur. I think it really is time that we 
transition effectively to an electronic system.
    I appreciate very much the testimony of this panel, as well 
as the one before in terms of some of the parameters about 
proceeding with that. We are obviously open to suggestions on 
improvement in the bill, but we think the bill provides a great 
starting point. Hopefully before it is all said and done, we 
will be able to move it forward and get it passed.
    We will keep the record open for at least a week for any 
additional comments that anyone would like to include for the 
record, but this will serve as the public record with respect 
to the bill. Hopefully, as I said, this is something that it 
seems to me at least in terms of issues that we deal with here 
in the Congress, which in many cases have a great deal of 
controversy, this seems to be fairly noncontroversial. If we 
can come up with a way of moving it fairly quickly through here 
and getting this process up and going, I think the sooner the 
better.
    So thank you all very much for your testimony. Senator 
Jeffords, congratulations again and thank you for your very 
distinguished service on this committee and advocacy on the 
issues that come before it.
    With that, the hearing is adjourned.
    [Whereupon, at 10:38 a.m. the subcommittee was adjourned.]
    [Additional statements submitted for the record follow.]

     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey

    Mr. Chairman, thank you for holding today's hearing on S. 3871, a 
way to electronically track hazardous waste as we move it--and safely 
get rid of it--across the country. S. 3871 would create a virtual 
manifest to track the hazardous waste we relocate and discard of across 
America. Coming from the computer world, I see the economy, 
transparency and power in that idea. Electronic manifests could make 
our paper-based system more secure, accurate and accessible to the 
public. But as we move our hazmat tracking into the modern age, we must 
make sure that age-old problems with data do not plague us.
    First, data needs protection. Virtual records--even more so than 
paper ones--can be lost. Second, people need access to data. First 
responders need it quickly and reliably--and people with and without 
computers also need it equally. Third, good data can prevent bad 
accidents from taking place. One reason we track hazardous waste from 
its cradle to its grave is to prevent the birth of new Superfund sites.
    The Nation already has 1,200--more than 110 in New Jersey alone. 
Neither New Jersey nor our Nation needs more. If we know more about the 
whereabouts of our waste, the less chance they have of causing us or 
our environment harm. I hope today's witnesses will address these 
concerns and recommend changes to strengthen the bill before us.
    Now, let me make two more comments on Superfund. This week--after 
requests from myself and others--the Ringwood Mines Superfund site in 
New Jersey was added back to the National Priorities List. I appreciate 
the EPA's action and hope it will ensure that the site is cleaned 
quickly to protect Ringwood's residents from toxic pollutants.
    In September, the Chairman and Ranking Member of our subcommittee 
urged the EPA Administrator to develop a plan to deal with Superfund 
sites where men, women and children are exposed to uncontrolled 
contaminants. New Jersey has 14 of these sites. Let me thank Senators 
Thune and Boxer for their support, and urge the EPA to make the 
uncontrolled exposure sites a top priority.

                               __________
 Statement of Susan Parker Bondine, Assistant Administrator, Office of 
   Solid Waste and Emergency Response, U.S. Environmental Protection 
                                 Agency

    Good morning, Mr. Chairman and members of the committee. I am Susan 
Parker Bodine, Assistant Administrator for EPA's Office of Solid Waste 
and Emergency Response. I am pleased to be here today to discuss 
tracking hazardous waste shipments under the Resource Conservation and 
Recovery Act (RCRA). In particular, I will focus my remarks on the 
efforts underway at EPA to establish a national electronic manifest 
system, or e-Manifest, to track hazardous waste shipments more 
effectively and efficiently.
    I will summarize EPA's current authority to track hazardous waste 
shipments under RCRA, and the paper-based manifest system that EPA and 
the Department of Transportation (DOT) established more than 25 years 
ago. In addition, I will describe EPA's ongoing efforts to revise and 
modernize the manifest system, including the effort underway to 
transition the manifest system from one that is very paper-intensive 
and burdensome to a system that will rely on information technology to 
track waste shipments. Finally, I will discuss the new statutory 
authorities that EPA will need in order to establish a national e-
Manifest system that will meet our needs and the needs identified by 
our stakeholders.
    EPA supports Chairman Thune's efforts and I look forward to working 
with the committee to address any issues that may arise as the bill 
moves through the legislative process.

          HAZARDOUS WASTE CONTROL AND THE RCRA MANIFEST SYSTEM

    Subtitle C of the Resource Conservation and Recovery Act 
establishes the statutory framework for the regulation of hazardous 
wastes. Pursuant to this, EPA has developed a comprehensive regulatory 
system prescribing ``cradle-to-grave'' controls on the generation, 
transportation, storage, and disposal of hazardous waste. As a 
threshold level of protection, Subtitle C of RCRA required that EPA 
establish a manifest system to ensure that hazardous wastes are 
designated for, and indeed arrive at, designated hazardous waste 
management facilities. The manifest requirement was the congressional 
answer to episodes of ``midnight dumping'' in the hazardous waste 
transportation and management industries.
    The manifest effectuates the very important function in our 
``cradle-to-grave'' waste management system of documenting that the 
hazardous waste shipments that originate at a specific ``cradle'' or 
generator site arrive intact at the selected ``grave'' or waste 
management facility. The manifest collects information about the 
quantity, composition, origin, and destination of all hazardous waste 
shipments. The manifest also documents the actual chain of custody for 
a waste shipment, by recording in turn the signatures of the generator, 
the transporters, and the receiving facility responsible for handling 
the waste.
    Under Section 3003(b) of RCRA, EPA is required to coordinate our 
waste transportation regulations with the Department of Transportation 
(DOT). This requirement exists in order to minimize duplication and 
ensure consistency between RCRA's hazardous waste transportation 
requirements and DOT's hazardous materials regulations. EPA's 
coordination with DOT has resulted in completing a hazardous waste 
manifest that assures compliance with DOT's requirements for completing 
a hazardous materials shipping paper.
    The manifest system stems from the so-called Uniform Manifest that 
EPA and DOT issued jointly in 1984. The Uniform Manifest is a multi-
copy form that generators of hazardous waste must complete before 
hazardous wastes can be shipped off-site. There are minimal Federal 
requirements that apply to all manifests. First, the generator is 
responsible for entering information that describes its wastes and that 
identifies the transporters and the waste management facility that will 
receive the waste. The manifest form is then physically carried with 
the waste shipment, and with each change of custody that occurs during 
transportation, a signature is obtained from the waste handler 
receiving custody. Each waste handler that signs the manifest must also 
retain a signed copy of the form among its company records to document 
its compliance. Finally, when the waste arrives at the designated waste 
management facility, that facility must sign the manifest and either 
verify that all the hazardous waste types and quantities were received, 
or identify any discrepancies. This final copy verifying receipts must 
then be sent to the generator, so that the generator receives 
confirmation of receipt by the designated facility.
    Authorized State programs may require the submission of one or more 
manifest copies so that the data may be entered into the States' 
tracking systems. There are currently 24 such States that collect 
manifest copies, and these States use manifest data for program 
management, revenue collection, and enforcement purposes. The States 
that collect manifest copies generally must enter the data manually 
into their tracking systems. All the manual processing steps described 
above add up to a very significant paperwork burden. We estimate that 
each year, hazardous waste generators prepare 2.4 to 5.1 million 
manifest forms, and that the completion and processing of all these 
forms results in an annual paperwork burden of between $200 million and 
$500 million.

                    BENEFITS OF AN E-MANIFEST SYSTEM

    EPA believes there are very significant benefits of an e-Manifest 
system--both cost savings and program efficiencies for the regulated 
community and regulators.
    One benefit of moving to an e-Manifest system is the cost savings 
that will result to manifest users and to the State agencies that 
collect manifests and process their data. When EPA began analyzing the 
business case for e-Manifest several years ago, we projected that an e-
Manifest system that handled 75 percent of the current manifest traffic 
electronically could result in annual net savings of approximately $100 
million to users and to State agencies. Again, these substantial cost 
savings result primarily from eliminating all of the manual processing 
steps that are necessary to support the completion, carrying, signing, 
filing, and mailing of paper manifests and data.
    However, a variety of other significant benefits also would be 
realized that are equally important, if not more important, to the 
hazardous waste program. An e-Manifest system would improve the overall 
effectiveness of the national hazardous waste tracking system and thus, 
provide increased protection to human health and the environment. I 
would like to highlight a few of these benefits.
    First, we would expect that the e-Manifest would produce better 
quality data and more timely information on waste shipments. The e-
Manifest could be developed with automatic quality checks that would 
identify data entry errors, and we would likely avoid many of the data 
interpretation errors that result currently from illegible handwritten 
entries or from illegible copies.
    Second, the e-Manifest system would make it possible to have nearly 
real-time tracking capabilities for waste shipments. Users could check 
the status of shipments as needed, and would no longer need to wait 30 
days or more for paper copies to be mailed and processed before they 
could determine if their hazardous waste shipments have been delivered. 
This electronic tracking capability would also provide much more rapid 
notification of any discrepancies, delays, or other problems connected 
with a particular shipment.
    Third, users could rely on the national e-Manifest system as their 
single point of contact for both their Federal and State-required 
manifest data reporting. Since all States would be linked to the e-
Manifest network, the submission of one e-Manifest to the national 
system also would supply necessary copies to all appropriate State 
programs. Thus, there would be one-stop reporting of manifest data.
    Fourth, the e-Manifest system, with its ability to provide a single 
point of contact for transmitting and storing manifests, also would 
support enhanced inspection and enforcement capabilities. Federal or 
State regulators conceivably could inspect a facility's manifests and 
shipment data quite readily without having to go on-site for a labor-
intensive inspection of paper records. Regulatory program management 
also would benefit by having access to manifest data that can be 
imported easily into a Federal or State Agency's tracking system, 
without having to re-enter data from paper forms.
    Finally, the full implementation of e-Manifest could foster new 
data management possibilities, such as simplification or consolidation 
of existing requirements and systems for biennial reporting of 
hazardous waste data, for reporting of hazardous waste export and 
import data, and possible consolidation or streamlining of duplicative 
Federal and State tracking systems.

                       MANIFEST PROGRAM REVISIONS

    Over the years, EPA has sought to improve the current manifest 
system. In May 2001, EPA proposed significant revisions to the manifest 
system. These proposed changes were motivated by EPA's desire to reduce 
the substantial paperwork burden that resulted under the 1984 Uniform 
Manifest requirements, as well as to enhance the effectiveness of the 
manifest as a means to track hazardous waste shipments. A key 
shortcoming of the 1984 Uniform Manifest was that it was not truly 
uniform. The Uniform Manifest included 11 ``optional'' data fields that 
authorized States could elect to incorporate into their State-specific 
manifest forms. Some 24 States in fact printed and distributed their 
distinct manifest forms, and generators were required to obtain the 
forms from either the State to which they shipped their waste, or from 
the State where the waste was generated. Thus, rather than having a 
truly ``uniform'' manifest, we instead had a system that featured many 
distinct manifest forms, which varied from State to State.
    Therefore, the May 2001 proposed Manifest Revisions Rule included 
two distinct components: (1) proposed form revisions aimed at fully 
standardizing the manifest form; and (2) proposed electronic 
manifesting standards aimed at automating the exchange of manifest data 
and eliminating, as far as possible, the manual processes involved with 
using paper forms. The proposed form revisions met with strong support 
from public commenters, and a final rule announcing a fully 
standardized hazardous waste manifest was published in March 2004. The 
new standardized manifest form just went into effect on September 5 of 
this year. Now, everyone is using the same manifest form, and the 
optional fields that resulted in variability among manifest forms have 
been eliminated. This standardized manifest form also is an important 
first step in the establishment of an electronic manifest, since an 
electronic manifest would not be feasible to implement without a 
standardized format for the exchange of manifest data.
    While EPA enjoyed success with standardizing the paper manifest 
form, the electronic manifesting standards proposed in May 2001 
generated a number of concerns from public commenters. The 2001 
proposal suggested a decentralized approach to electronic manifesting, 
under which EPA would issue standards to govern the development of 
manifest systems by various private sector entities. Public commenters 
suggested that EPA's proposed decentralized approach was not cost-
effective, as it would likely result in inconsistent proprietary 
systems being developed that could not communicate with each other nor 
provide the necessary data security. These comments expressed a strong 
preference for an alternative e-Manifest approach that featured one 
consistent, centralized and secure system for completing and 
transmitting electronic manifests.
    As a result of these comment, EPA engaged in additional analysis of 
options and outreach with stakeholders before deciding on the future 
direction of the e-Manifest project. Therefore, in May 2004, EPA 
conducted a national stakeholders meeting to have a broader discussion 
of system alternatives, policy and technical issues, and funding 
options. Based on that input and feedback, and based on other 
discussions with interested parties since May 2004, the Agency has been 
exploring how it could develop and fund an e-Manifest system that would 
be centralized, secure, and sustainable, so that the regulators and 
users might realize the many benefits that are possible under an 
electronic system.

                        A SUSTAINABLE E-MANIFEST

    EPA is convinced that a fee-based, centralized e-Manifest system 
has the greatest likelihood of succeeding. Because the manifest users 
would actually enjoy the greater part of the benefits and cost savings 
that would result from using the e-Manifest, it seems fitting to the 
Agency and to the users themselves that the manifest users should fund 
the system development and operation costs. In addition, EPA already 
has the capability to host the e-Manifest system on the Agency's 
electronic reporting architecture known as the Central Data Exchange or 
CDX. Using EPA's CDX electronic reporting hub would ensure the legal 
validity and integrity of any e-Manifest records that would be 
transmitted. Further, this EPA system already has established links to 
networks operated by EPA and the States as part of the Environmental 
Information Exchange Network.
    In early 2005, EPA sought to fund the development of the e-Manifest 
system under the Electronic Government Act of 2002 which authorized, on 
a pilot basis, a new contracting approach for Federal information 
technology (IT) projects. The General Services Administration (GSA) was 
authorized to manage the program, and we worked closely with GSA to 
formulate a project plan and a procurement action for developing e-
Manifest. Unfortunately, we were not able to complete the e-Manifest 
procurement activity before the expiration of the pilot authority in 
September 2005. EPA's final e-Manifest rule was not yet completed and 
issues remained about the legal sufficiency of the E-Gov Act provisions 
as a basis for EPA collecting and retaining user fees.

                          STATUTORY AUTHORITY

    EPA's efforts in 2005 to initiate a fee-funded e-Manifest 
procurement under the pilot program helped us better understand what 
authorities were needed to pursue such an approach. First, legislation 
should authorize EPA to collect, retain, and use the fees collected to 
pay the costs associated with the development, operation, support, 
management, and future upgrade or enhancement of the e-Manifest system. 
This authorization should explicitly provide that the monies collected 
as user fees are available to EPA to use for the payment of e-Manifest 
system costs, without fiscal year limitation. Second, legislation 
should contain contracting provisions for e-Manifest that would 
authorize a performance-based contracting approach similar to the pilot 
program approach that was authorized in the Electronic Government Act 
of 2002. This would enable EPA and the IT vendor to enter into a 
procurement relationship under which the vendor would develop and 
operate a system meeting EPA's performance objectives.
    Third, legislation should include provisions that will ensure that 
the e-Manifest system and the authorizing regulations developed by EPA 
could be implemented in all States. The e-Manifest can be successful as 
a cost savings project for users and a profitable venture for vendors 
only if it is assured that the e-Manifest will be implemented 
consistently in the States. The e-Manifest will not be successful if 
some States choose not to recognize the validity of electronic 
manifests, or if some States require a paper manifest to be completed 
in addition to an e-Manifest. Similarly, EPA believes that the e-
Manifest should be effective in all States as a Federal requirement on 
the effective date designated in the authorizing regulation.
    Thereafter, as authorized State programs revise their regulations 
to adopt e-Manifest and become authorized for this program 
modification, the e-Manifest would become effective as well under State 
law. However, to avoid confusion for users, and to assure that the IT 
vendor developing e-Manifest has a stable market, we need to be sure 
that e-Manifest will be effective as a Federal requirement on the same 
date in all States.

                               CONCLUSION

    In summary, EPA supports the enactment of legislation that would 
allow EPA to establish a national e-Manifest system. We believe that 
such an electronic system can produce better tracking services for our 
citizens, better data for informed policy decisions and program 
management, greater accountability for how hazardous wastes are 
transported and managed, and provide cost savings to both the e-
Manifest users and regulators. EPA looks forward to working with 
Congress to develop legislation which would provide EPA with the 
appropriate authorities to help us accomplish these goals and to 
provide for the development of an efficient, effective e-Manifest 
system.
                                 ______
                                 
     Responses by Susan Parker Bodine to Additional Questions from 
                            Senator Jeffords

    Question 1. Questions regarding the Solvent-Contaminated Industrial 
Wipes Proposed Rule (68 FR 65586) What is the status of the rule?
    Response. The proposed rule was published in the Federal Register 
for notice and comment on November 20, 2003 (68 FR 65586). The comment 
period closed in April 2004.
    The U.S. Environmental Protection Agency (EPA) received numerous 
comments both supporting and raising issues with the proposed rule. In 
particular, EPA received a number of comments about the risk assessment 
supporting the proposal. To respond to these comments, EPA believes it 
is necessary to revise the risk assessment. We plan to publish a 
``Notice of Data Availability'' (NODA) requesting review and comment on 
the revised risk assessment once it is completed. We continue to work 
on those issues not directly affected by the risk assessment so that we 
can complete the final rule as quickly as possible after receiving 
comments on the risk assessment.

    Question 2. Under the rule, what are the conditions for excluding 
solvent contaminated reusable wipes from the definition of solid waste 
under RCRA? What are the conditions for excluding solvent contaminated 
disposable wipes from the definition of hazardous waste under RCRA?
    Response. EPA is currently revising the risk assessment, and plans 
to make it available for comment before publishing a final rule. 
Therefore, it would be premature to speculate what conditions will be 
in the final rule as EPA is continuing to work through the process to 
finalize the conditions. EPA will thoroughly consider the numerous 
comments received both supporting and raising issues on the proposed 
rule as the final rule is promulgated.
    The proposed rule contained the following conditions for reusable 
wipes:
    <bullet> accumulate, store, and manage the wipes on-site in 
covered, nonleaking containers;
    <bullet> transport the wipes off-site in containers that are 
designed, constructed, and managed to minimize loss to the environment; 
and
    <bullet> containers of wipes sent to a laundry must not contain 
free liquids.
    The proposed rule contained the following conditions for disposable 
wipes:
    <bullet> accumulate, store, and manage the wipes on-site in 
covered, nonleaking containers;
    <bullet> transport the wipes off-site in containers that are 
designed, constructed, and managed to minimize loss to the environment;
    <bullet> transport the wipes in containers labeled ``Exempt 
Solvent-Contaminated Wipes.''
    <bullet> ensure that the wipes transported to a municipal waste 
landfill or other nonhazardous waste landfill contain less than 5 grams 
of solvent each, or been treated by solvent extraction; and
    <bullet> the disposable wipes must not contain 11 solvents 
identified in the risk assessment for posing a risk or identified as a 
Toxicity Characteristic solvent.

    Question 3. How will the EPA and the States ensure that the 
conditions for both exclusions will be met?
    Response. EPA and States authorized to implement the hazardous 
wastes regulations have the authority to take enforcement action if 
persons managing the wipes fail to comply with one or more of the 
conditions of the exclusion. Both EPA and the authorized States have a 
range of enforcement mechanisms available to respond to violations of 
the hazardous waste regulations. Please refer to the preamble of the 
proposed rule for a more detailed discussion on enforcement (See 68 FR 
65607).

    Question 4. Will the rule provide any requirements that will 
protect workers handling these solvent contaminated wipes?
    Response. As noted previously, it would be premature to speculate 
what conditions will be in the final rule. While the Occupational 
Safety and Health Administration is the Agency primarily responsible 
for worker protection, the proposed rule included conditions such as 
the requirement that wipes be stored in nonleaking covered containers, 
which would increase worker protection.

    Question 5. Regarding laundry facilities that clean solvent 
contaminated wipes for reuse, does the EPA's risk analysis for this 
rule consider increased solvent discharges in wastewater? If not, 
please explain why. Will the rule prohibit solvents from entering the 
wastewater stream?
    Response. As noted previously, EPA continues to evaluate comments 
received on the solvent-contaminated industrial wipes proposal and the 
proposed risk assessment. EPA is currently revising the proposed risk 
assessment, and plans to make the revised risk assessment available for 
comment before publishing a final rule. EPA considered promulgating 
standards for industrial laundries under the Clean Water Act in the 
late 1990s, but chose not to do so. The proposed solvent-contaminated 
industrial wipes rule included conditions that were designed to 
minimize the quantity of solvent received on wipes at laundries. For 
example, the proposal included a ``no free liquids'' standard for 
wipes, and also requested comment on other approaches for minimizing 
solvent on wipes. Thus, the proposed rule should lead to reductions in 
solvents discharged by laundries.
                                 ______
                                 
     Responses by Susan Parker Bodine to Additional Questions from
                           Senator Lautenberg

    Question 1a. Some States that support the concept of e-Manifests 
want to ensure that their use will be voluntary, and serve as a 
supplement, not a substitute for paper manifests. What is EPA's 
position on whether e-Manifests should supplement, rather than replace 
paper manifests?
    Response. The U.S. Environmental Protection Agency (EPA) believes 
that to implement the e-Manifest system nationally, it must be 
effective in all States. Thus, if a member of the regulated community 
elects to use an electronic manifest, then that electronic manifest 
would replace the paper manifest for purposes of compliance with RCRA 
requirements. However, the e-Manifest will not eliminate the need for a 
paper document entirely, because the e-Manifest will not change the 
U.S. Department of Transportation's (DOT) shipping paper requirements--
notably the requirement that a paper copy of a shipping paper be 
carried on the transport vehicle. This DOT requirement, however, could 
be satisfied by using the e-Manifest system to print a paper document 
for the transporter to carry on the transport vehicle.

    Question 1b. Should the use of the e-Manifest system be voluntary?
    Response. EPA's regulatory workgroup will address the issue of 
whether the e-Manifest should be mandatory or optional in the final 
regulations that EPA will publish for e-Manifest. EPA has, in previous 
statements indicated that the e-Manifest would likely be optional for 
users. We also asked the public about this issue in an April 18, 2006, 
Notice of Data Availability. Comments generally supported making the e-
Manifest an optional system, at least initially.
    If EPA found that there were substantial benefits to other 
reporting requirements (e.g., biennial report), we might want to 
consider making e-Manifest mandatory for at least some classes of waste 
handlers, such as large quantity generators (LQGs) and/or treatment, 
storage, and disposal facilities (TSDFs). It should be noted that the 
definition of ``use?'' in S. 3871 suggests that the e-Manifest will be 
used at the election of the users.

    Question 1c. How will the system work if some of the parties in the 
chain of custody of the waste are using a paper manifest system and 
others are using an e-Manifest system?
    Response. EPA recognizes that there may be times when an electronic 
manifest cannot be passed to all the waste handlers involved in a waste 
shipment. Fundamentally, however, a TSDF must be able to receive and 
process electronic manifests, and either the generator or transporter 
should also have the capability to create or transmit an electronic 
manifest in order for the transaction to be initiated electronically. 
EPA's regulatory workgroup will address how the system will work if one 
or more of the parties in the chain of custody of the waste are unable 
to use the e-Manifest system.

    Question 2a. Does EPA have a firm estimate of the numbers of 
generators, transporters, and treatment and disposal operators that 
currently have to comply with the Resource Conservation and Recovery 
Act (RCRA) manifest requirements?
    Response. EPA currently estimates that there are approximately 
131,600 generators, 358 transporters, and 569 TSDFs that use the 
hazardous waste manifest as part of the RCRA program.

    Question 2b. Does EPA know how many of those parties have the 
computers and other tools needed to participate in an e-Manifest 
program?
    Response. While EPA does not have specific estimates of how many 
parties would have access to computers and other tools, it is expected 
that most hazardous waste generators have office desktop PCs with 
Internet capabilities. The e-Manifest will be designed so that 
hazardous waste generators, transporters, and TSDFs can access the 
system through their Internet-enabled once desktop PCs or other 
portable devices. Further, we understand that some TSDF and transporter 
companies are already introducing portable devices and computer 
applications to their generator customers. We expect this will also be 
the ease with e-Manifest, so that many generators will not need to have 
their own computer equipment to participate in the e-Manifest system.

    Question 3a. Does EPA have an estimate of what it would cost to 
fully implement an e-Manifest system?
    Response. On April 18, 2006, EPA published a Notice of data 
availability (NODA) and request for comment. EPA outlined the range of 
cost estimates based on a 2002 benefit-cost analysis conducted by 
Logistics Management Institute, Inc. (LMI) which is an expansion of 
LMI's October 2000 initial benefit-cost study in support of our May 22, 
2001 proposed rule for the e-Manifest. The 2002 study estimates start-
up costs for an e-Manifest system from $2.0 million to $7.0 million in 
the initial year, plus $0.8 million to $3.2 million per year for future 
annual operation and maintenance (O&M). In addition to this system 
cost, industrial facilities are expected to spend upwards of $60.2 
million to $68.8 million, and State governments upwards of $2.3 million 
to $3.1 million, in start-up costs for modifying existing IT systems to 
process e-Manifests (assuming 100 percent participation in the 
centralized e-Manifest system). Industrial facilities and State 
governments also may spend upwards of $32.2 million to $37.0 million in 
annual future costs for apportionment of a fraction of existing 
business IT system costs for e-manifesting purposes. However, the 
expected average annual reduction in paperwork burden for handling the 
current paper manifest forms that e-Manifest will provide industrial 
facilities and State governments is expected to offset these costs by a 
net annual savings exceeding $103 million per year.

    Question 3b. Does EPA envision treating States as ``users'' for 
purposes of collecting a user fee to pay for the system?
    Response. No. Several States commented on the April 2006 Notice of 
Data Availability and nearly all of these asked the question as to 
whether States would be considered ``users'' of the e-Manifest and 
therefore, subject to paying user fees when they accessed information 
from the system. EPA has since indicated to States that the term 
``users'' refers to members of the regulated community who are required 
to use the manifest to track waste shipments, and not to Federal or 
State regulators or emergency responders who access the system to 
obtain manifests.

    Question 4a. Concerns have been raised about the access of 
emergency responders to e-Manifest information. How does EPA plan to 
address that concern?
    Response. As I discussed in a response to a question posed at the 
hearing, emergency responders will have access to the manifest 
information that they rely upon to discharge their responsibilities. 
First, transporters will still be required by DOT to carry a hard copy 
of the manifest or other hazardous materials shipping paper on the 
transport vehicle during the entire time that a hazardous waste 
shipment is in transportation. This requirement is in place to ensure 
that emergency responders can access information about the materials 
being transported in the event of an accident or other incident 
involving the vehicle that would require an emergency response. The 
hard copy of the manifest or other shipping paper will contain all of 
the appropriate information about the containers and materials that are 
involved in the shipment, including the DOT proper shipping name, 
hazard class, packing group, container information, and quantity of 
each material in the shipment. As this information will be available on 
a paper copy that will be accessible from the vehicle, access of the 
emergency responders to technology should not be a factor. Second, to 
the extent emergency responders need to access the e-Manifest system to 
obtain data on hazardous waste shipments, EPA does not intend to 
restrict in any way the access of emergency responders to the 
electronic data in the system. We discuss this further below in our 
answer to Question 5.

    Question 4b. Do you think that there is a solution to that problem 
besides maintaining both a paper and an e-Manifest system?
    Response. Currently, we do not know of a solution that would avoid 
the requirement to carry a paper copy of the manifest or shipping 
paper, as this is a DOT requirement under its hazardous materials 
regulations, or HMRs. DOT believes that it is essential that the 
transport vehicle carry a shipping paper that contains information that 
is accessible in a readable form to emergency responders who may be 
called upon to respond to an incident in remote locations or under 
adverse circumstances where technology is not available or operational. 
While EPA shares the concern that this will not allow for a completely 
paperless system, we believe that the system can be designed and 
operated efficiently, and that users will realize substantial savings 
and benefits from being able to enter, transmit, receive, and process 
their manifest data through the electronic system.

    Question 5a. What is the universe of parties that EPA envisions 
will have access to e-Manifest data? Will State regulators, enforcement 
officials and others have access?
    Response. EPA envisions that the entities named on the manifest as 
having a role in the shipping, handling, transportation, or management 
of the hazardous waste shipment will have access to the e-Manifest 
data. Thus, the generator, transporter(s), and the designated TSDF 
named on each manifest will be provided access to the manifests, so 
that they can track the status of their hazardous waste shipments and 
receipts.
    In addition, emergency responders and State and Federal regulators 
will have access to all manifest information in the system. This means 
that State and local police and fire officials, State and Federal 
regulators, State and Federal enforcement officials, and all other 
emergency responders will have unrestricted access to all the manifest 
copies and data that will be accessible from the e-Manifest system. 
This access is necessary to afford prompt and appropriate emergency 
response, and the necessary police and enforcement oversight of the 
hazardous waste and hazardous materials regulations, while providing 
Federal and State oversight agencies with data they need to manage 
their regulatory programs.

    Question 5b. Will there be limits on public access to the data? If 
so, what will be the limits, and why?
    Response. While EPA intends to provide unrestricted data access to 
regulators, enforcement officials, and emergency responders, EPA is 
considering the appropriate level of access to other members of the 
public. EPA has been advised by several parties that there are security 
and/or commercial concerns over providing immediate and unrestricted 
public access to all e-Manifest information. For example, some parties 
have advised EPA that there can be security risks posed from immediate 
unlimited access to information identifying the whereabouts and 
destination of certain high risk (e.g., explosive or highly flammable) 
materials, while they are in transportation. Further, members of the 
hazardous waste management industry have advised us that they are 
concerned that competitors might access manifest data to develop 
customer list information that could be used for competitive purposes.
    EPA has not yet determined the appropriate level of access. EPA 
will consider this to be a regulatory issue that will be worked out by 
EPA and State participants as part of the regulatory workgroup process. 
If limits are imposed, they will be developed with the purpose of 
protecting the security or commercial interests that would be adversely 
affected by public disclosure.

    Question 5c. In New Jesey, as well as other States, manifest data 
is public and is not treated as confidential business information 
(CBI). If EPA intends to classify manifest information as CBI, please 
explain the Agency's reasoning for doing so.
    Response. EPA is aware that New Jersey and several other States do 
not treat manifest data as CBI. These States may do this, as they 
operate under their own statutes and regulations that address the 
availability of information. States generally do not need to have the 
same protections in place for CBI that EPA administers under Federal 
law for CBI. EPA is required to implement the Federal Trade Secrets 
Act, the Federal Freedom of Information Act, and the statutory 
protections included in RCRA for confidential business information. If 
EPA were to determine that manifest data submitted to EPA through the 
national e-Manifest system may be claimed to be CBI, it would be the 
result of applying Federal law addressing CBI to the facts and 
circumstances of manifest submissions, and whether the release of 
certain manifest data which might be claimed CBI could harm the 
competitive position of the claimant. Again, EPA intends to examine 
this issue as part of the regulatory process when we develop the final 
regulations on e-Manifest.
                               __________
 Statement of Cheryl T. Coleman, Director, Division of Compliance and 
    Enforcement, South Carolina Bureau of Land and Waste Management
    Good Morning Chairman Thune, ranking member Boxer and Members of 
the Senate Committee on Environment and Public Works. I thank the 
committee for the opportunity to appear before you to discuss the 
addition of electronic hazardous waste manifests to the existing paper 
hazardous waste manifest system.
    I am the director of the Division of Compliance and Enforcement in 
the Bureau of Land and Waste Management at the South Carolina 
Department of Health and Environmental Control. The Division of 
Compliance and Enforcement is responsible for ensuring conformance with 
applicable regulations for management of hazardous, solid, infectious 
and radiological waste, as well as mining and reclamation, underground 
storage tank and Superfund activities in the State. Activities 
associated with these responsibilities include inspections of 
generators, transporters and treatment, storage and/or disposal 
facilities. Additionally, I serve as co-chairperson of the Hazardous 
Waste Subcommittee and chairperson of the Enforcement and Compliance 
Assurance Task Force for the Association of State and Territorial Solid 
Waste Management Officials (ASTSWMO).
    The Resource Conservation and Recovery Act (RCRA), passed by 
Congress on October 21, 1976 established authority for EPA to develop a 
preventive system to control the growing volume of municipal and 
industrial waste through national goals designed to protect human 
health and the environment from potential hazards of these wastes; 
conserve energy and natural resources; reduce the volume of these 
wastes and ensure the wastes are managed in an environmentally sound 
manner. The hazardous waste program, managed under RCRA Subtitle C is a 
cradle to grave system designed to ensure appropriate management of 
these wastes from generation to disposal.
    The hazardous waste manifest is an essential tool for monitoring 
and tracking hazardous waste from the time the waste leaves the 
generator facility where it was produced until it is delivered to the 
destination facility for storage, treatment and/or disposal. Both the 
Department of Transportation and EPA require the manifest. Each entity 
handling the waste as it is transported to its destination is required 
to sign and retain a copy of the manifest. This results in 
accountability and responsibility for all involved in the disposal 
process. Once the destination facility receives the waste, a signed 
copy of the manifest is returned to the generator, thus confirming 
proper delivery of the entire shipment.
    EPA enables States to assume primary responsibility for 
implementing the RCRA hazardous waste program; and as such, most States 
have requested and received authorization for the core elements of the 
RCRA program. As an authorized State, South Carolina applauds the 
inclusion of electronic reporting of hazardous waste activities in the 
hazardous waste manifest system and fully supports this initial step in 
that process.
    S. 3871 primarily focuses on the design of a system and does not 
identify a role for States other than membership on the proposed 
Hazardous Waste Electronic Manifest System Governing Board and the 
requirements for development of the regulations. As a supporter of the 
concept, South Carolina offers the following comments:
    (1) S. 3871 should clearly state that participation in the 
electronic manifest reporting process is voluntary. Companies may be 
unable to submit this information electronically due to limitations 
with funding and technology.
    (2) The definition of the term ``user'' should be clarified. The 
current definition could be interpreted to mean that use of the 
electronic manifest process is mandatory even though paragraph B 
indicates participation is voluntary. In addition, States accessing the 
information as part of the regulatory process could be considered 
``users'' of the system and incur fees.
    (3) The system should be designed in a manner that is inclusive of 
existing State regulatory programs and current manifest procedures and 
not require additional State financial resources.
    (4) It is unclear if potential users will incur fees during the 
development stages.
    (5) Paragraph (g) (B)(2)--Effective Date of Regulations states that 
regulations promulgated by the Administrator relating to electronic 
manifesting of hazardous waste shall take effect in each State as of 
the effective date specified in the regulation. States authorized to 
implement the RCRA program in lieu of EPA have State specific statutory 
requirements for promulgating regulations that may be inconsistent with 
the timeframe established in this paragraph. We respectfully request 
that this wording be modified to recognize State requirements for 
promulgation of regulations.
    (6) S. 3871 does not address the importance of the manifest in the 
transportation phase for wastes sent for treatment, storage and/or 
disposal. Specifically, the bill does not identify how inspectors and/
or emergency response personnel will be able to access electronic 
manifests to identify wastes in transit. This information is vital, 
particularly in the event of an emergency.
    For example, there have been several incidents where emergency 
personnel responded to a spill of hazardous waste and the transport 
vehicle driver's English proficiency was limited. The absence of a 
paper manifest could have delayed or resulted in inappropriate response 
activities as it includes information needed for appropriate response 
activities.
    (7) Electronic manifests would facilitate pre-inspection activities 
for State regulators. Because South Carolina, like many other States, 
does not receive copies of manifests, access to this information prior 
to the actual inspection would greatly enhance the inspection process.
    (8) The regulations should not inhibit public access to the 
information.
    In conclusion, we recognize that paragraphs five through eight can 
and should be more thoroughly addressed during the promulgation of 
regulations stage of this process. We wish to take this opportunity to 
emphasize the importance of including State representatives and 
strongly encourage the committee to include steps to ensure that States 
are active participants in subsequent phases of regulation development.
    Thank you again for the opportunity to share this information with 
you this morning.
                               __________
     Statement of Frederick J. Florjancic, Jr., CEO and President, 
                       Safety-Kleen Systems, Inc.

    Mr. Chairman, Senator Boxer and Members of the Committee:
    Thank you for inviting Safety-Kleen to testify on S. 3871, the 
``Hazardous Waste Electronic Manifest Establishment Act.''
    My name is Fred Florjancic, Jr., and I am CEO and President of 
Safety-Kleen Systems, Inc., which is a major environmental services 
provider throughout the United States, Canada and Puerto Rico, and we 
are now expanding into Mexico, as well. We employ more than 4,500 
people in North America at more than 200 locations, of which 
approximately 4,100 people at 190 locations are in the U.S., and we 
provide more than 400,000 customers of all sizes, including 
approximately 440 of the Fortune 500, with safe, compliant recycling 
and environmental services.
    I am also proud to note that Safety-Kleen is the leading re-refiner 
of used oil in North America, collecting more than 200 million gallons 
of waste oil every year and re-refining it back into high-quality oil 
and other products that extend the life of this precious resource. 
Safety-Kleen also collects approximately 300 million gallons annually 
of hazardous waste in North America.
    I am particularly pleased to be here today in support of S. 3781, 
which was recently introduced by Subcommittee Chairman Thune and 
Senator Jeffords, and co-sponsored by Committee Chairman Inhofe. This 
is an important piece of legislation for our country, for our industry 
and for Safety-Kleen. We strongly support S. 3781, and compliment the 
Subcommittee and full Committee Chairmen, and Senator Jeffords, for 
your hard work and leadership in addressing this issue and crafting an 
extremely positive bill that we believe can dramatically improve the 
present hazardous waste manifest system.
    I am comfortable expressing our support because, at Safety-Kleen, 
we know manifests. Because Safety-Kleen serves so many different types 
and sizes of customers, we believe Safety-Kleen is the nation's largest 
individual user of the current, paper-based waste tracking system. For 
example, this year Safety-Kleen will use between 600,000 and 700,000 
paper manifests, and just today we will generate more than 2,400 
manifests for our customers to complete. During my testimony here, we 
will issue 25 manifests for customers to complete for waste shipments 
taking place somewhere in the US. Needless to say, this proposed 
legislation could have a significant, and we believe positive, impact 
on Safety-Kleen, our customers and the State regulatory agencies who 
play a key role in implementing the manifest system.
    The current requirement to use a manifest has existed for more than 
25 years. Manifests are a key element of the Resource Conservation and 
Recovery Act, known as RCRA, which was adopted in 1976. The purpose of 
the manifest system was to help eliminate a significant problem at that 
time--what was then known as ``orphaned waste''--waste that could not 
be traced back to its origins and, as such, became a burden on the 
American taxpayer. Since 1980, RCRA has required that a manifest 
accompany all shipments of hazardous wastes, and that has brought 
order, discipline and accountability to our national hazardous waste 
management system.
    Manifests contain two key types of information--first, what a waste 
shipment is comprised of so that, in the event of an emergency, first 
responders know what materials they are managing. Second, the manifest 
identifies who shipped the waste, who is transporting the waste and 
where it is ultimately headed, so that it can be tracked every step of 
the way to ensure its proper disposition.
    The waste manifest tracking system is clearly a key element in 
avoiding past problems associated with improper waste handling and 
disposal, but the question today is, ``Can we do a better job?'' I 
believe the answer is yes, and that S. 3871 provides a solid framework 
for moving in that direction.
    Our current, paper-based manifest system places an enormous 
paperwork burden on regulated companies, customers and State regulatory 
agencies. A recent economic analysis prepared by the EPA estimates that 
more than 92,000 regulated entities track between two and four million 
waste shipments every year.
    Keep in mind that each manifest form has six copies, containing up 
to 83 fields of information. The current form must filled out by the 
customer using a combination of computer-generated and manually 
inserted information, then signed in ink, and physically carried with 
each waste shipment. Copies, and sometimes multiple copies, have to be 
mailed to generators and State agencies, and we have to keep permanent 
records at our facilities. For Safety-Kleen, our mailing costs alone 
are close to $1 million per year, and the paperwork burden is so 
significant for the States that 22 of them no longer even accept paper 
copies of manifests.
    EPA estimates\1\ that the present paper manifest takes about an 
hour for the generator and waste receiver to complete, and that by the 
time all of the necessary parties have seen, processed and approved the 
document, that increases to 2 hours per document for each end every 
hazardous waste shipment that occurs in the United States. EPA also 
estimates that the labor costs alone for creating, handling, and 
processing the paper manifests are somewhere between $193,000,000 and 
$769,000,000 annually. That is a broad a range of estimated costs and, 
while Safety-Kleen has not made its own independent estimate of the 
labor costs associated with the existing system, we do believe based on 
our own experience that the current system is quite labor intensive 
and, therefore, costly. We believe that an electronic system could 
reduce this time and expense considerably, for all the parties 
involved, and result in a system that is more efficient, reliable, 
accessible and timely.
---------------------------------------------------------------------------
    \1\ Eads, Mark, U.S. EPA (Nov. 24, 2004), ``Economic Analysis of 
the U.S. EPA's Final Rule Revisions to the RCRA Waste Manifest Form,'' 
p. 37, 44.
---------------------------------------------------------------------------
    Frankly, we are today using a manifest tracking system that was 
developed before the widespread use of desktop computers, information 
networks, and fully integrated information technology architectures. 
Today's system works, but it is a dinosaur--it does not take advantage 
of any of the quality, cost and productivity improvements that 
computers allow.
    The potential benefits of moving to an electronic manifest, or ``e-
Manifest'', system are significant. For example, an e-Manifest system 
would:
    <bullet> Provide States with manifest data in an easily usable, 
searchable and storable format;
    <bullet> Allow the regulated community to develop computer-based 
manifest systems that would improve data quality;
    <bullet> Streamline transactions for customers; and,
    <bullet> Save tens of millions of dollars every year by reducing 
the paperwork burden on States, the EPA and industry.
    Additionally, a national e-Manifest system could produce national 
security benefits by improving our overall ability to track hazardous 
materials. Under the current paper system, it can take weeks to provide 
basic verification to generators or regulators that a waste shipment 
has been completed, but under an e-Manifest system, such information 
could be produced on essentially a real-time basis.
    S. 3871 would amend Subtitle C of the Solid Waste Disposal Act (42 
U.S.C. 6921, et seq.) by adding a new Section 3024 authorizing a 
Hazardous Waste Management System, including specific provisions 
relating to the establishment, structure, and management of such a 
system. In commenting on specific provisions in the bill, I will refer 
to proposed subsections in new Section 3024 of Subtitle C, as would be 
created under the bill.
    I would note for the committee five specific items with regard to 
the system as established under the bill:
    1. Safety-Kleen believes that any fee structure established to pay 
for an e-manifesting system must be limited to providing funding for 
designing and implementing that program specifically and exclusively. 
In other words, any fee structure must not become a de facto tax or 
fund other programs. I believe subsections (c) and (d) attempt to 
address this issue. Specifically, we believe the precise language in 
subsection 3024(c)(3) requires the fee to cover only the costs of 
operating the e-Manifest system. We believe the language in subsections 
(c)(3)(A)(IX) and (e)(4)(C)(ii) should be read narrowly and should not 
allow indirect government personnel costs not related to the e-Manifest 
system to be passed along as part of the fee structure. Safety-Kleen 
also believes the fee structure must result in overall cost savings to 
the regulated community. We urge the subcommittee to conduct oversight 
in the future to ensure that these savings materialize, or to make such 
revisions to the program as may be deemed necessary, including making 
the system mandatory after some reasonable phase-in period because only 
through a mandatory system will the benefits of the system ultimately 
be realized.
    2. An e-Manifest system must be cost-effective to the regulated 
community and to the government as a whole. We endorse the bill's 
proposal to have a qualified IT contractor build the system, and then 
receive payment from users on a per-manifest basis. The benefits of 
such a system are numerous. For example, using a private contractor 
eliminates the need for Federal appropriations. Second, the winning 
contractor's risk and profit will depend on the quality of service 
provided--it will establish a proper business incentive for solid 
performance. Specifically the ``Achievement of Goals'' requirements in 
subsection (e)(3) will make this a performance-based contract that will 
have the best chance of creating an e-Manifest system that will benefit 
all users. And if users are dissatisfied, they can turn back to the 
present paper system. The ``Cancellation and Termination'' requirements 
in subsection (e)(5) will allow for the termination of the IT 
contracts, and therefore the e-Manifest system, if the e-Manifest 
system is not used enough to generate sufficient funds.
    3. The regulated community--industry--needs to have a place at the 
table to provide recommendations to the Administrator on the e-Manifest 
system. The new ``Hazardous Waste Electronic Manifest Governing Board'' 
established under subsection (f) provides adequately for such 
opportunities. Safety-Kleen supports the creation of this Board. In 
addition, we fully endorse subsection (f)(2)(B)(ii) that requires at 
least one seat on the Board to be allocated to users of the manifest 
system.
    4. The system must be flexible and scalable to address both today's 
manifesting environment and tomorrow's manifesting needs. I believe the 
Administrator, when entering into a contract in accordance with 
subsection (g), should require the IT contractor to provide for meeting 
both current and future needs.
    5. An e-Manifest system will provide real-time information 
regarding the generation, transportation and final disposition of 
wastes, and part of such information may be proprietary to the 
generator or hazardous waste disposal facility--that is, it may include 
business information that would provide competitors an advantage if 
disclosed. It is very important to share e-Manifest information with 
necessary governmental agencies throughout the transportation process, 
and to be able to do so easily, but it should also be an imperative 
that special consideration be given to information designated as 
``business confidential'' in order to protect customer/service provider 
relationships. This issue should be clearly addressed in the 
legislation, and we would be pleased to work with the committee and 
staff to develop such language, as appropriate.
    In closing, I believe S. 3871 provides a solid foundation for 
moving our nation to a 21st century hazardous waste manifest tracking 
system. Enactment of this legislation will produce significant 
improvements in data quality, real-time tracking capability, costs and 
productivity for industry and State regulatory agencies. We will 
provide any additional thoughts we might have on this important 
legislation to the Committee, and we look forward to working with the 
committee and staff to help move this bill forward.
    Thank you, again, for the opportunity to testify and I would be 
pleased to take any questions that Members of the committee might have.
                                 ______
                                 
Responses by Frederick J. Florjancic, Jr., to Additional Questions from 
                           Senator Lautenberg

    Question 1a. Does Safety-Kleen think the e-Manifest system should 
be mandatory, once it is past the pilot phase?
    Response. Safety-Kleen believes that the electronic manifest should 
be mandatory at some point in the future. We believe the best approach 
is to build the system and allow a certain time, say up to 2 years, for 
the system to be operated, tested, and improved. After that time, a 
formal decision process on whether to make the e-Manifest mandatory, 
that includes input from the regulated community, should be conducted. 
In our opinion, not making electronic manifests mandatory would reduce 
the savings that would be derived from mandatory electronic manifests.

    Question 1b. Should the paper manifest system ultimately be 
dropped, entirely?
    Response. Safety-Kleen believes that if the e-Manifest system is 
designed and operated properly there will be no need for the paper 
manifest. Our response to the above question addresses this in more 
detail.

    Question 1c. How would you address the concern raised about access 
to e-Manifest data for first responders?
    Response. Safety-Kleen wants to make sure that first responders 
have quick access to shipment information for their safety and for the 
protection of human health and the environment. We believe this 
information could be provided through one of two options: (1) The 
vehicle is equipped with an electronic device that is portable and 
capable of providing the needed information on demand for emergency 
responders; or (2) The vehicle transporting the regulated material 
carries a paper, DOT approved, Bill of Lading. Either option will 
provide the first responders with the needed information to respond to 
an emergency.

    Question 2. Concerns have been raised about the sufficiency of an 
e-Manifest system to back-up and not lose data. Could you address those 
concerns?
    Response. Safety-Kleen believes that any e-Manifest system must 
have redundancy built into it so that the potential failure of one node 
would not eliminate vital information from the system. The type of IT 
architecture that can accomplish this is standard for critical 
applications throughout business and government.

    Question 3. In New Jersey, as well as other States, manifest data 
is public and is not treated as confidential business information 
(CBI). Does Safety-Kleen support keeping manifest information submitted 
to EPA public, or classifying it as CBI? If you support classifying 
some or all of the manifest information as CBI, please explain what 
specific information and why it should be so classified.
    Response. It is not Safety-Kleen's intention to exclude manifesting 
information from public review or to limit any access to any manifest 
information to the regulatory authorities. However, we are concerned 
that, if no limitations are placed upon the public availability of such 
information,--particularly when such information is available in real 
time--competitors will have immediate access to our customer list. All 
members of our industry commit significant time and resources to 
acquiring, servicing, and maintaining their customers. If competitors 
have instant access to that customer information, it could 
significantly affect their business. Accordingly, we recommend that 
generator information (generator name, address, EPA ID, and phone 
number) be maintained as confidential for a period of one year after 
the date on which waste is picked up. For security reasons, we also 
believe information on certain types of waste being shipped (for 
example., mixed wastes and wastes that could be vulnerable to terrorist 
threats) should not be publicly available until after the waste reaches 
its disposal destination. All information would be immediately 
available to first responders and Federal and State regulatory 
authorities as well as information that is not deemed confidential or 
sensitive. All other information would be released to the public 
through a more deliberate process consistent with existing laws and 
regulations concerning the release of information to the public.
                               __________
   Statement of Phillip J. Bond, President and CEO on Behalf of the 
             Information Technology Association of America

    Mr. Chairman, distinguished Senators, on behalf of ITAA's 325 
corporate members, I'd like to thank you for inviting us to share our 
perspective on allowing electronic tracking of hazardous waste. I'd 
also like to take this opportunity to thank you for your continued 
leadership to amend the Resource Conservation and Recovery Act (RCRA) 
in order to make such a system possible.
    The legislation before the subcommittee today is a creative 
approach to solving a problem on behalf of the U.S. taxpayer. 
Information technology drives innovation throughout the national and 
global economies. Throughout the economy, we see IT streamlining 
processes and making them more efficient. We see no reason why IT 
cannot streamline this reporting requirement while simultaneously 
enhancing our national security.
    Our understanding is that EPA requires shippers to include the 
Uniform Manifest with hazardous waste shipments for two purposes. 
First, that information is needed by emergency responders in the event 
of an incident. Second, it allows the government to track every 
shipment all the way to the final disposal facility. Both are critical 
environmental, as well as national security goals.
    Yet in this high-tech age, the paperwork burden from this process 
is enormous. In fact, it is the most expensive such burden that the EPA 
imposes under the Federal hazardous waste law. Further, EPA's economic 
analysis estimates that over 92,000 regulated entities annually track 
2.4 million shipments a year.
    Each manifest form has seven or eight copies. Each of those copies 
must be manually filled out and signed with pen and ink signatures; 
physically carried with waste shipments; mailed to generators and State 
agencies; and finally, stored among facility records. Finally, some 
States charge a fee to help pay the cost of supplying paper forms and 
to defray the costs of processing the paper copies and converting the 
data into a useful, electronic format. To put it simply, this process 
is straight out of the last century--and it is just too costly, too 
manpower intensive, too cumbersome and too time consuming.
    And, perhaps most importantly, because of the administrative 
burden, this information is not getting where it needs to go. 
Currently, 22 States and the EPA do not even collect copies. Those 
States that do receive copies often simply store them without review.
    An e-Manifest system would solve all of these problems and greatly 
enhance capability where it currently does not exist. It would help 
States--and the public--receive data more readily in a format they can 
use. Members of this committee and other national policymakers would 
know exponentially more about hazardous waste transportation in this 
country than they do today. And it is estimated that it would save over 
$100 million every year.
    A national e-Manifest would also produce homeland security 
benefits. To know the nature of a shipment, its location, and the 
parties involved would take minutes or seconds instead of weeks. If a 
shipment were diverted for some sinister purpose or if a highly 
sensitive shipment were delayed because of mechanical failure or road 
or weather conditions, we can know this and be alerted in time to 
respond and do something about it.
    Authentication is another issue to consider, but it is hardly an 
insurmountable problem in the 21st century. Congress itself accepts 
digital signatures as a secure way of authenticating electronic 
documents. Lobbying reports are required to be submitted on-line and 
are authenticated by digital signatures. Electronic signatures are also 
now widely accepted throughout the financial, legal and insurance 
sectors. And, an electronic process assured through the use of digital 
signatures would be more secure, not less secure, than the paper-based 
manifest process employed today.
    Your proposal is an elegant solution to an ugly problem, and we 
commend you for your innovative 21st Century approach. Under this 
legislation, the EPA would be authorized to develop requirements and 
conduct a competitive bid. Bidding companies would be asked to create--
at their own expense--proposed solutions for an e-Manifest service. The 
winning bidder would be paid for their investment through a user fee 
established as part of the initiative by EPA.
    This procurement could allow industry to make the initial 
investment in a solution while providing for a potential premium in 
return. The legislation allows private industry to share both risk and 
reward. Operational funding, capital costs and EPA administrative costs 
for the e-Manifest system would also be generated from the fee. Without 
the legislation that you are considering, the fees collected would be 
considered Federal revenues and prohibited from such uses. As we 
mentioned earlier, fees are already being collected to cover the cost 
of the manifest management process today, so we are not creating a new 
burden on the shippers or the government entities that must keep track 
of these shipments.
    Finally, I'd like to note that this legislation upholds the broader 
aims of e-Government. It makes a bureaucratic government process more 
efficient and enhances security along the way. It makes government 
better at what it does for the American people. All in a fiscally 
responsible manner. Which, from where I sit today, sounds like good 
government of, by and for the people.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T7644.001
    
    [GRAPHIC] [TIFF OMITTED] T7644.002
    
    [GRAPHIC] [TIFF OMITTED] T7644.003
    
    [GRAPHIC] [TIFF OMITTED] T7644.004
    
    [GRAPHIC] [TIFF OMITTED] T7644.005
    
    [GRAPHIC] [TIFF OMITTED] T7644.006
    
    [GRAPHIC] [TIFF OMITTED] T7644.007
    
    [GRAPHIC] [TIFF OMITTED] T7644.008
    
  

                                  <all>

</pre></body></html>
